U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




            Review of the Bureau of Alcohol, Tobacco,
                    Firearms and Explosives’
            Implementation of the Safe Explosives Act
                           I-2005-005




                                  March 2005
                                EXECUTIVE DIGEST


      In this evaluation, the Office of the Inspector General (OIG)
reviewed the Bureau of Alcohol, Tobacco, Firearms and Explosives’ (ATF)
implementation of the Safe Explosives Act (SEA), which was enacted on
November 25, 2002.1 The ATF is the chief enforcer of explosives laws
and regulations in the United States, and is responsible for licensing and
regulating explosives manufacturers, importers, dealers, and users. The
ATF is also responsible for overseeing most explosives storage. This OIG
evaluation examined the ATF’s license and permit operations, including
how it conducts background checks before authorizing individuals to
possess explosives. We also reviewed the ATF’s plans to establish the
National Explosives Licensing Center and the ATF National Laboratory’s
plans to collect and catalog samples of explosives as authorized by the
SEA.

      Explosives are an integral component of the nation’s economy.
More than 5 billion pounds of explosives are used each year in the
United States for mining, construction and demolition projects,
pyrotechnics, medicine (such as in heart medication and to break up
kidney stones), automobile manufacturing (to inflate airbags), and
numerous other industries.

       The SEA was implemented to enhance public safety by expanding
the ATF’s licensing authority to include the intrastate manufacture,
purchase, and use of explosives.2 The SEA also expanded the categories
of “prohibited persons” to be denied access to explosives from four to
seven. The new prohibited persons categories are aliens (with limited
exceptions), persons who have been dishonorably discharged from the
military, and individuals who have renounced their United States
citizenship. These categories were added to the pre-existing categories of
prohibited persons that included felons, fugitives, users of and persons
addicted to controlled substances, and persons who have been
adjudicated mentally defective or committed to mental institutions.

      In addition, the SEA required that proprietors, owners, and
corporate officers of companies that manufacture, sell, or import

       1   P.L. 107-296, Title XI, Subtitle C of the Homeland Security Act of 2002.

      2 The ATF issues 23 different types of licenses and permits governing the

manufacture, importation, sale, and use of explosives.




U.S. Department of Justice                                                            i
Office of the Inspector General
Evaluation and Inspections Division
explosives submit fingerprint cards and photographs to the ATF with
their license applications. It also mandated that the ATF inspect
licensees’ manufacturing and storage facilities at least once every three
years. Finally, the SEA required the ATF to conduct background checks
on all licensees, as well as all employees who have access to explosives
as part of their work (Employee Possessors).3 In order to identify all
prohibited persons, the ATF entered into an agreement with the Federal
Bureau of Investigation (FBI) to perform these background checks.4

       The SEA did not change the explosives types subject to the ATF’s
licensing authority, as defined in 18 U.S.C. § 841, and it did not increase
the number of explosives under the ATF’s control. Most notably, it did
not extend the ATF’s regulatory authority over ammonium nitrate or
other common chemicals that, when combined, become explosives.

RESULTS IN BRIEF

       Our review found critical deficiencies in the ATF’s implementation
of the background check and clearance process that prevented the
agency from ensuring that prohibited persons are denied access to
explosives. Our comparison of ATF and FBI data found no record that
the ATF requested FBI background checks on 59 of 683 employees of
explosive licensees (9 percent) whose ATF records we examined. We also
determined that the ATF had failed to complete the background check
process for over half (655 of 1,157) of the individuals identified by the
FBI as possible prohibited persons. Consequently, these potentially
prohibited persons were still authorized to access explosives. Through
additional research, we found that several of these individuals had
serious criminal records. For example, one of the individuals was a
previously convicted felon who had been sentenced by a state court in
late 2003 to 33 months’ incarceration for felony theft.

      We also found that the ATF frequently failed to complete the
clearance adjudication process or enter final determinations of Employee
Possessors’ status into its Federal Licensing System (FLS). As a result,

       3 Before the SEA was enacted, proprietors, owners, and corporate officers –

generally referred to as “Responsible Persons” – were required to submit to background
checks before being granted a license or a permit. The new prohibited persons
categories also apply to these individuals.

       4 This partnership was established with the approval of the Department of

Justice, Office of Legal Policy, which wrote that “… only a check conducted [by the FBI]
would reveal prohibiting information regarding mental health prohibitions, dishonorable
discharges, persons who have renounced their citizenship, and illegal aliens.”


U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
the clearance status of 31 percent of the Employee Possessors we
reviewed were listed as “pending” for an average of 299 days. Moreover,
the ATF did not complete investigations for almost 300 individuals for
whom the FBI could not resolve issues found through its National
Instant Criminal Background Check System (NICS).

       In addition, the ATF had not timely adjudicated requests for relief
from persons who were identified as prohibited persons and denied
access to explosives. Further, the ATF Inspectors responsible for
inspecting explosives licensees had not received adequate training in
explosives products and operations, which resulted in inconsistent
regulatory enforcement. Finally, almost two years after enactment of the
SEA, we found that the ATF had begun only recently to plan for the
collection and cataloging of samples of explosives at the ATF National
Laboratory or to establish a National Explosives Licensing Center.5

       We explain these findings in greater detail in the sections that
follow.

The ATF frequently failed to complete the background check and
clearance process to ensure that prohibited persons are denied
authorization to possess explosives.

       We found critical deficiencies in several aspects of the background
check and clearance process implemented by the ATF to carry out the
licensing requirements of the SEA. As detailed below, these deficiencies
included not requesting background checks on all Employee Possessors,
not acting when the FBI reported finding prohibiting information, and
not completing the investigations and adjudication of clearances.
Because of these deficiencies, the ATF has not ensured that prohibited
persons are denied access to explosives.

       The ATF did not request FBI background checks on all employees
of license applicants. We compared FBI NICS data with ATF FLS data to
determine whether the ATF had requested background checks on all
Employee Possessors. We found that at least 59 of the 683 individuals in
our sample (9 percent) were not listed in the FBI’s records as having had
a background check. Of those 59, the ATF’s FLS records indicated that


        5 The SEA did not specifically mandate that the ATF establish a National

Explosives Licensing Center. The authority for the National Explosive Licensing Center
is contained in a report by the House Appropriations Committee (House
Report 108-401).


U.S. Department of Justice                                                          iii
Office of the Inspector General
Evaluation and Inspections Division
34 were in a pending status and 25 had been cleared to access
explosives.

      The ATF frequently failed to make final determinations on
employee clearance status based on FBI background checks and other
information sources. Once the FBI has completed background checks on
Employee Possessors, the ATF’s National Licensing Center (NLC) retrieves
the results and completes the adjudication process to determine whether
Employee Possessors should have access to explosives.6 Until the
adjudications are completed, cases are categorized as “pending” in the
NLC’s system.

       As of September 2004, the ATF reported that 25,181 of the 56,589
Employee Possessor records (45 percent) in the NLC’s system were
“pending.” Because Employee Possessors may have multiple records in
the FLS, we examined a sample of 683 individual Employee Possessor
records.7 We found that 31 percent (211 of 683) of the Employee
Possessors had no adjudication result entered in any of their FLS
records, indicating that the ATF had not made a final determination as to
the clearance status of those individuals. These Employee Possessors’
clearances had remained in a “pending” status for an average of 299
days.

      After being presented with the OIG’s analysis of the large number
of “pending” cases in November 2004, the Chief of the NLC termed the
problem “a major weakness” in the explosives licensing process and
began an initiative to determine the full magnitude of the discrepancy.
The NLC selected an initial non-statistical sample of 52 names of
individuals identified by the FBI as possible prohibited persons, and
checked their clearance status in the ATF’s FLS. The NLC found major
discrepancies between the ATF’s and FBI’s records: 26 were listed in the
FLS as being “denied” access to explosives, 20 were listed as “pending,” 4
were listed as cleared, 1 was listed as “denied” in 1 FLS record and
“pending” in another record, and 1 did not appear in FLS at all. Upon
reviewing these results, the NLC could not explain the discrepancies and,
therefore, began reviewing a larger sample of FBI “denied” individuals.



       6 To retrieve the results of an FBI background check, employees at the National

Licensing Center must log into an FBI database and input the results of the check into
the ATF’s licensing database.

       7 The sample size was actually 1,000 FLS records, which represented 683
individual Employee Possessors.


U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
       The ATF did not complete adjudications for individuals identified
by the FBI as possible prohibited persons. According to ATF data, as of
August 2004, only 502 Employee Possessor applicants had been denied
the authority to possess explosives. However, the FBI had actually
identified 1,157 possible prohibited persons among the Employee
Possessors submitted by the ATF. The other 655 individuals – over half
of the possible prohibited persons identified by the FBI – continue to
have the authority to possess explosives because their background
checks remained in a “pending” status. Our research found that some of
these individuals had significant criminal records, including, for
example:

       •   A convicted felon currently serving a 3-year probation sentence
           for illegally leaving a “halfway house” prior to being formally
           discharged.

       •   An individual who had been arrested over 20 times and who
           had at least three felony convictions (two for damaging property
           and one for auto theft) since 1992. Since the FBI background
           check was conducted, the individual began serving a 33-month
           sentence with the Arizona Department of Corrections as a result
           of his latest felony theft conviction.

      Because the ATF had not denied authorization to possess
explosives to these individuals but continued to show them as pending in
FLS, they continued to have ATF authorization to access explosives for as
long as 14 months after being identified as a possibly prohibited person
by the FBI.

       The ATF does not consistently complete the background check
process for individuals with inconclusive NICS checks. When the NICS
check identifies a possible prohibiting factor in an individual’s
background that the FBI cannot confirm (e.g., due to unavailability of
court records), the case is referred back to the ATF for completion of the
investigation. The ATF’s procedures require that the case be reviewed
and, if necessary, assigned to the appropriate ATF Field Division (based
on the location of the individual) to determine whether the individual
should be prohibited from possessing explosives. We found that the ATF
had not consistently followed up and completed these cases.

      According to the ATF data, 297 individuals for whom the FBI could
not complete background checks to confirm prohibiting factors remained
in pending status and continued to have the authority to possess
explosives. On average, the background checks for these individuals had


U.S. Department of Justice                                                   v
Office of the Inspector General
Evaluation and Inspections Division
been pending at the ATF for 363 days. According to ATF officials, as of
January 2005 none of the 297 cases had yet been referred to an ATF
field office for investigation.

       The ATF requested background checks on individuals who did not
appear in the ATF’s licensing database. As part of our review to
determine whether the ATF requested background checks on employees
of explosives license applicants, we reviewed and compared ATF and FBI
records. In the course of that review, we found instances in which the
NLC’s NICS user identification number had been used to conduct
background checks on persons who did not appear as Employee
Possessor applicants in FLS. In response to our inquiries, the FBI
provided us a total of 893 records of Employee Possessor background
checks. Of those, we found that the individuals on whom 21 of the 893
background checks (2 percent) were conducted could not be found in any
of the ATF’s FLS records. This could have occurred because the records
were never entered into the FLS by the NLC, because an NLC employee
misused their access to check individuals not involved with explosives, or
because the NLC’s on-line access (through a digital certificate issued by
the FBI) has been compromised. The NICS system is intended only for
legitimate uses, including background checks of explosives license
applicants and their employees. If these checks were not initiated on
explosives license applicants or their employees, it would be an abuse of
the NICS system. At the least, the discrepancy indicates that records on
Employee Possessors are missing from FLS.

Many explosives licensees have not reported hiring any new
Employee Possessors.

       The SEA requires that explosives licensees report all new Employee
Possessors to the ATF within 30 days of their being hired so that the ATF
can conduct the required background checks. Under the ATF
procedures, Employers submitting updated personnel rosters are to be
provided with an amended “Notice of Clearance” to inform the employer
of the results of the background checks. However, according to the ATF,
as of February 11, 2005, it had issued only 920 amended Notices of
Clearance to the more than 9,500 employers that it has issued licenses
to since implementation of the SEA. The limited number of amended
Notices of Clearances issued by the ATF indicated that few explosives
licensees have reported new employees to the ATF.

       Further, we found that some of the 920 amended Notices of
Clearance were issued solely to correct mailing address errors while some
of the Notices were duplicates. Therefore, we estimated that the number


U.S. Department of Justice                                                vi
Office of the Inspector General
Evaluation and Inspections Division
of actual amended Notices of Clearance issued in response to reports of
new employees was, at most, about 700. This indicates that less than 8
percent of the 9,510 explosives licensees covered by the SEA had
reported any new hires to the ATF between May 2003 and January 2005.
Moreover, we examined records related to the 50 licensees with the most
reported Employee Possessors and found that 24 of the licensees had not
reported any new Employee Possessors to the ATF. These licensees
employed a total of 13,380 Employee Possessors, according to their
original applications. The lack of any reports of new Employee
Possessors indicates that many companies were not notifying the ATF of
personnel changes or that NLC Examiners were not issuing amended
Notices of Clearance. We spoke with Examiners who confirmed that they
were not receiving updated personnel rosters from companies.

      If employers fail to report new employees, potentially prohibited
persons could have access to explosives until the next renewal or
compliance inspection, which may not occur for up to three years.

ATF information systems are ineffective for managing the explosives
licensing functions mandated by the SEA.

      The deficiencies noted above occurred, in part, because the ATF’s
FLS contains significant structural deficiencies that limit its utility for
monitoring the licensing process and for providing ATF management with
information on critical aspects of licensing operations. We determined
that because of structural deficiencies, the system cannot be used to
ensure that FBI background checks are conducted on all Employee
Possessor applicants during the licensing process and cannot be used to
properly manage and report on the clearance status of employees of
explosives licensees. In addition to structural deficiencies, we found
numerous instances of inaccurate, incomplete, and missing data in the
FLS database. Combined, these deficiencies prevent timely and effective
management of some of the most basic activities related to the ATF’s
explosives oversight responsibilities.

The ATF does not timely adjudicate requests from individuals
seeking reconsideration of prohibited person status.

      Individuals prohibited from possessing explosives can apply to the
ATF’s Explosives Relief of Disabilities (ROD) Section for “relief” from
federal regulations (i.e., an exception that will allow them to possess
explosives notwithstanding the prohibiting factors). Although the ATF
has not completed regulations to govern the adjudication of relief
applications, an ATF draft order states that relief applications should be


U.S. Department of Justice                                                vii
Office of the Inspector General
Evaluation and Inspections Division
adjudicated within 74 days. As of September 1, 2004, 453 individuals
had applied for relief, of whom 299 (66 percent) had been adjudicated by
the ATF. We found that the ATF took, on average, more than 121 days to
adjudicate those cases.

      Delays in adjudicating relief applications are problematic for
individuals who work in the explosives industry, as well as their
employers. For example, on 13 occasions, ATF Field Divisions took more
than six months to process an appeal and grant relief to individuals who
applied for ROD.

Inadequate training for ATF Inspectors has resulted in a lack of
explosives product knowledge and inconsistent regulatory
enforcement.

      After the SEA was enacted, the ATF expanded its Advanced
Explosives Training Course for Inspectors from seven to ten days and
enhanced the training to include more explosives product identification.
The ATF told us that it intended to have all Inspectors attend the
enhanced training, including 247 Inspectors who took the course before
it was revised. However, the ATF plans to conduct only three classes per
year, with 30 Inspectors in each class. At that rate, it will take seven
years before all ATF Inspectors have attended the revised course. It will
take at least three years to send those ATF Inspectors who have never
attended Advanced Explosives Training to the course.

       Inspectors and industry members we spoke with stated that the
Inspectors need better training. For example, one Inspector told us that
she learns about new explosives products from licensees, a comment
that was mirrored by several industry representatives who told us that
they do not feel Inspectors are adequately trained to inspect various
types of explosives. ATF officials, Inspectors, and industry members also
cited problems with the consistency of Inspectors’ interpretations of ATF
regulations that they attributed to the lack of Inspector training. For
example, one licensee that operates nationwide stated that because ATF
Inspectors conduct inspections and interpret regulations differently at
various locations, he cannot develop a consistent corporate policy to
comply with ATF regulations. Another industry member complained that
an ATF Inspector cited his company for storing explosives too close to an
“inhabited building” (a garage), although prior Inspectors over almost 20
years had never categorized the structure as an “inhabited building.”
Whether the change in the category was correct (either because the latest
Inspector noted changed circumstances or the prior Inspectors had been
mistaken), the licensee told us that the reasons for the new


U.S. Department of Justice                                            viii
Office of the Inspector General
Evaluation and Inspections Division
determination had not been made clear to him. According to ATF
Inspectors we spoke with, calculating the quantities of explosives allowed
in storage magazines was the issue that most frequently caused them
difficulty when conducting explosives inspections.

ATF inspection procedures are inadequate to ensure that prohibited
persons are identified during compliance inspections.

      During our review, we determined that ATF procedures are not
adequate to ensure that Inspectors check for Employee Possessors who
may have become prohibited since their initial ATF background check.
For example, Employee Possessors may have been convicted of a felony
or dishonorably discharged from the military since their initial
background checks. Inspectors are instructed to conduct “random”
background checks on Employee Possessors during compliance
inspections, but we found that the ATF work plan does not specify how
the random sample is to be selected or establish a minimum number of
checks to be conducted. Further, the compliance inspection work plan
does not require that Inspectors query NICS to conduct the rechecks.
Instead, Inspectors are instructed to conduct the rechecks using the
Treasury Enforcement Communications System and the National Crime
Information Center (NCIC) systems. However, these systems are not as
comprehensive as the NICS database queried by NLC personnel to
conduct the original background checks.8

      At the time of our review, the ATF had not determined whether to
conduct NICS background checks on all Employee Possessors when
explosives licenses or permits are renewed or whether to require
Employee Possessors to submit updated application renewal forms. If
the ATF chooses not to recheck all Employee Possessors during renewal
inspections, but uses a random sample approach as with compliance
inspections, some Employee Possessors may never be rechecked.




        8 In addition to NCIC information, the NICS database contains information on

individuals dishonorably discharged by the Department of Defense, individuals
adjudicated mentally defective, and individuals who have renounced their United States
citizenship.




U.S. Department of Justice                                                          ix
Office of the Inspector General
Evaluation and Inspections Division
The ATF National Laboratory has made little progress in
implementing the provisions of the SEA that authorized the
collection and cataloging of samples of explosives.

      We found that the ATF National Laboratory had only recently
developed a systematic approach to collect, analyze, and catalog samples
of explosives. The SEA granted the ATF the authority to collect samples
of explosives and ammonium nitrate from manufacturers and importers.
The samples were to be used to create libraries of information to support
investigations of explosives incidents. During a June 2002 congressional
hearing, the Acting ATF Director testified that a library of explosives
information “is essential to ATF’s ability to prevent and solve bombings
and to trace explosive materials used in terrorist activities and other
violent crimes by matching residue with the manufacturers’ samples.”9

      However, during our review, we determined that the ATF had only
used its authority to collect explosives samples one time – to collect a
model rocket motor. The ATF had not collected any samples of
ammonium nitrate. Moreover, the National Laboratory had only recently
developed a systematic approach for collecting, analyzing, and cataloging
samples of explosives.

       Subsequent to the completion of our field work, in October 2004,
the National Laboratory began the planning process for constructing an
explosives storage facility, the first step toward enabling the laboratory to
collect and analyze explosives. Planning for an electronic database to
house explosives information collected by the laboratory began in late
August 2004. According to the National Laboratory’s operating plan, the
ATF plans to formalize protocols for gathering information from
explosives manufacturers by June 2005 and, by July 2005, develop a
prototype of the explosives database.

ATF efforts to establish a National Explosives Licensing Center.

      In the ATF’s fiscal year 2004 appropriation, Congress authorized
the ATF to create the National Explosives Licensing Center (NELC),
stating: “The conference agreement includes … $4,000,000 to upgrade
databases and systems, space alterations, and other costs related to
creating the National Explosives Licensing Center … at the Bureau of

       9 Testimony before the House of the Representatives, Committee on the

Judiciary, Subcommittee on Crime, Terrorism, and Homeland Security, hearing on
H.R. 4864, the Anti-Terrorism Explosives Act of 2002, June 11, 2002.




U.S. Department of Justice                                                       x
Office of the Inspector General
Evaluation and Inspections Division
Alcohol, Tobacco, Firearms and Explosives National Tracing Center.”10
The ATF selected a Chief for the NELC in October 2003 and in July 2004
the NLC began transferring its explosives licensing operations for new
applications – not renewal applications – to the NELC on a state-by-state
basis. As of October 2004, the NLC had transferred these operations for
32 states.

      In September 2004, the Chief of the NELC told us that he expects
the NELC to be fully operational by August 2005. However, as of
September 2004, the ATF had not developed any detailed plans,
timelines, or reports for accomplishing the transfer of the remaining
explosives licensing operations to the NELC. In January 2005, ATF
Headquarters officials stated that the NELC was developing detailed
plans for the full transfer of licensing operations, but did not provide a
copy for our review. We discussed issues related to the establishment of
the NELC with management staff at the NLC because they carry out
firearms licensing functions within the ATF and have been handling
explosives licensing functions pending the establishment of the NELC.
They stated that, in their opinion, the NELC is unprepared to handle
issues beyond basic licensing.

Additional issues reviewed by the OIG.

      In conducting this review, we identified several additional issues
related to the regulation and safeguarding of explosives in the United
States that, while not addressed in the SEA, nevertheless are relevant to
public safety. They include the following:

       •    The lack of ATF authority to regulate ammonium nitrate and
            some commonly used explosives, and

       •    The lack of ATF authority to inspect all government-owned
            explosives storage facilities.

       With regard to government-owned explosives storage facilities,
federal, state, and local government agencies are exempt from ATF
licensing and permitting requirements, although most are required by
law to store explosives in accordance with federal regulations. Therefore,
according to ATF Headquarters officials, the ATF only inspects
government-owned explosives storage facilities when the owners of these
magazines invite the ATF to perform inspections.


       10   House Report 108-401.



U.S. Department of Justice                                               xi
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSIONS AND RECOMMENDATIONS

       We believe that immediate action is required to correct the critical
deficiencies in the ATF’s implementation of the SEA identified in this
report to ensure that prohibited persons do not have access to
explosives. Because of the ATF’s inability to ensure that background
checks on all Employee Possessor applicants were conducted, and its
failure to complete the background check process on others, at least 655
possible prohibited persons are currently allowed access to explosives.
This represents a significant risk to public safety.

       The ATF also must take steps to improve the consistency and
effectiveness of its oversight activities so that explosives workers who
may have become prohibited persons are identified during ATF
inspections. In addition, ATF Inspectors must be adequately trained in
explosives products and operations to carry out their oversight of the
explosives industry effectively and consistently. The ATF also needs to
direct the completion of plans for establishing an explosives licensing
center and to implement a process for collecting and cataloging
explosives at the ATF National Laboratory to assist national and local law
enforcement during investigations of the illegal use of explosives.

       In our report, we make 10 recommendations to help the ATF
improve the implementation of the Safe Explosives Act and more
effectively regulate explosives within the United States:

   1. Implement procedures to ensure that all Employee Possessor
      applicants receive a thorough background check.

   2. Establish milestones and controls to ensure that Employee
      Possessor applicants do not remain in a “pending” status in the
      FLS for extended periods. As an immediate action, NLC
      management should regularly generate an aging report for pending
      cases, setting priorities for resolving those cases that have been in
      a pending status for more than 45 days.

   3. Implement procedures to ensure the integrity, completeness, and
      accuracy of the Employee Possessor information in the FLS. To
      correct the current data problems, the ATF should conduct a
      100 percent cross-match of the names of individuals issued
      licenses and permits by the ATF with the names of individuals on
      whom the FBI conducted NICS checks, and then:




U.S. Department of Justice                                               xii
Office of the Inspector General
Evaluation and Inspections Division
          — Conduct background checks on any individuals contained in
          the ATF licensing system but not confirmed as having been
          checked by the FBI.

          — Immediately recheck the license status of all individuals
          determined by the FBI to be prohibited persons and ensure
          those individuals are denied access to explosives.

          — For any individual that the FBI has recorded a NICS
          background check under the NLC’s NICS user identification
          number, but for whom the ATF has no record in its licensing
          system, determine whether the person is involved in the
          explosives industry. If the person is, enter the individual into
          the ATF’s licensing system, and, if not, conduct an investigation
          to determine who may have performed the background check
          and why.

   4. Implement quality control procedures, data entry protocols, and
      system modifications to ensure FLS data accuracy, including:

          — Modification of the FLS to ensure that an Employee
          Possessor has only one status, system-wide, no matter how
          many licenses or permits are associated with the individual.

          — Modification of the FLS to prevent the entry of illogical or
          incomplete data.

   5. Use existing NLC Employee Possessor information to provide a
      monthly listing to each Field Division of the licensees in their
      jurisdiction, the number of Employee Possessors, and the date the
      company last reported an Employee Possessor to determine the
      most egregious cases of licensees who have failed to notify the ATF
      of new hires.

   6. Take action to ensure that there is no unauthorized or
      inappropriate use of the FBI NICS E-Check system. As an
      immediate action, the ATF should cancel the NLC’s NICS user
      identification number and assign unique user identification
      numbers to each individual responsible for conducting the checks.

   7. Improve the consistency of regulatory determinations by
      designating a single point of contact at ATF Headquarters for
      Inspectors and explosives industry members. The point of contact



U.S. Department of Justice                                                 xiii
Office of the Inspector General
Evaluation and Inspections Division
       should maintain a history of regulatory inquiries and post
       frequently requested information on the ATF’s website.

   8. Examine alternatives for speeding the delivery of the ATF’s
      Advanced Explosives Training course to all Inspectors, and develop
      a curriculum to build explosives expertise within the ATF’s
      Inspector workforce.

   9. Develop a detailed timeline for accomplishing the actions
      necessary to complete the implementation the National Explosives
      Licensing Center in Martinsburg, West Virginia, including the
      implementation of changes to the licensing and background check
      processes, the adjudication process for Employee Possessors, and
      the data systems that will support these processes.

 10. Develop comprehensive plans, funding requests, industry notices,
     proposed regulations, and other necessary documents to
     implement the authority granted under the SEA to collect and
     catalog samples of explosives at the ATF National Laboratory.




U.S. Department of Justice                                           xiv
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


LIST OF ACRONYMS

INTRODUCTION ..............................................................................1

       Purpose .......................................................................................1
       Background .................................................................................1
       Scope and Methodology ..............................................................17

RESULTS OF THE REVIEW.............................................................20

       Failure to complete the background check and clearance process
       Failure to check backgrounds ....................................................21
       Unidentifiable NICS background checks .....................................23
       Failure to adjudicate background checks ...................................24
       Failure to act upon background check determinations ...............27
       Failure to complete FBI-initiated background checks .................29
       Many licensees have not reported new employees .......................31

       Ineffective information systems for managing explosives licenses
       The FLS cannot ensure that all NICS E-Checks are conducted ...35
       The FLS cannot properly manage clearance statuses ..................35
       The FLS cannot ensure that records are current and consistent .36
       The FLS cannot be used to track trends in new employees .........36
       The FLS does not have sufficient error-checking mechanisms ....37
       Recommendations ................................................................38

       Failure to adjudicate Relief of Disability appeals timely ...............40
       Inadequate inspection procedures ..............................................44
       Failure to train ATF Inspectors ...................................................46
       ATF Inspectors’ interpretations of regulations lack consistency ...48
       Little progress in collecting and cataloging explosives .................49
       Progress at establishing a National Explosives Licensing Center ..51
       Recommendations ................................................................53

ADDITIONAL ISSUES......................................................................55

APPENDIX       I:     Domestic and Foreign Bombing Incidents ..............59
APPENDIX       II:    Employee Possessor Questionnaire ........................61
APPENDIX       III:   Notice of Clearance ...............................................62
APPENDIX       IV:    Comments from the ATF ........................................63
APPENDIX       V:     OIG Analysis of the ATF’s Comments .....................90
                LIST OF ACRONYMS


AEXIS   Arson and Explosives Information System
ATF     Bureau of Alcohol, Tobacco, Firearms and Explosives
DOL     Department of Labor
DOT     Department of Transportation
EPQ     Employee Possessor Questionnaire
FBI     Federal Bureau of Investigation
FLS     Federal Licensing System
FY      Fiscal Year
GAO     Government Accountability Office
NCIC    National Crime Information Center
NEIT    Northeast Inspection Team
NELC    National Explosives Licensing Center
NICS    National Instant Background Check System
NLC     National Licensing Center
NTN     NICS Transaction Number
OIG     Office of the Inspector General
OLC     Office of Legal Counsel
OLP     Office of Legal Policy
ROD     Relief of Disabilities
SEA     Safe Explosives Act
TECS    Treasury Enforcement Communications System
TSA     Transportation Security Administration
TTB     Alcohol and Tobacco Tax and Trade Bureau
                                   INTRODUCTION


Purpose

      The purpose of this evaluation was to assess the Bureau of
Alcohol, Tobacco, Firearms and Explosives’ (ATF) implementation of the
Safe Explosives Act (SEA).11 The SEA was enacted in November 2002 to
enhance public safety by expanding the ATF’s licensing authority to
include the intrastate manufacture, purchase, and use of explosives; by
expanding the categories of “prohibited persons” to be denied access to
explosives; by requiring background checks on all individuals who have
access to explosives; and by mandating triennial inspections of licensees’
manufacturing and storage facilities.

Background

      Explosives are an integral component of the nation’s economy.
More than 5.5 billion pounds of explosives are used each year in the
United States in a variety of industries and for a variety of purposes,
such as aerospace (for ejector seats and separation devices for rocket
stages); coal mining; avalanche control; construction; demolition;
excavation for foundations and underwater channels; fire suppression
systems; law enforcement (exploding dye capsules); metalworking;
pyrotechnics; medicine (heart medication and treating kidney and gall
stones), manufacturing (inflating automobile airbags and creating
synthetic diamonds); and numerous other applications.

      Coal mining uses 68 percent of the total amount of explosives sold
in the United States. Quarrying and non-metal mining is the second-
largest explosives consuming industry, accounting for 13 percent of total
explosives sales; metal mining, 8 percent; construction, 8 percent; and
miscellaneous uses, 3 percent. West Virginia, Kentucky, Wyoming,
Indiana, Virginia, and Pennsylvania, in descending order, are the largest
explosives-consuming states, accounting for a combined total of 58
percent of domestic sales.12

      Explosives are also used illegally. According to data provided by
the ATF’s Arson and Explosives National Repository, over the past

       11   P.L. 107-296, Title XI, Subtitle C of the Homeland Security Act of 2002.

       12Geological Survey Minerals Yearbook—2002, Explosive. (Percentages add to
101 percent due to rounding.)


U.S. Department of Justice                                                             1
Office of the Inspector General
Evaluation and Inspections Division
3 years, the ATF received about 700 reports of domestic bombing
incidents. (See Appendix I for more information on domestic and foreign
bombing incidents.)

       The ATF is the chief enforcer of explosives laws and regulations
and is responsible for licensing and regulating explosives manufacturers,
importers, dealers, and users. The ATF also is responsible for overseeing
most regulations involving explosives storage.13 The ATF’s National
Licensing Center in Atlanta, Georgia, oversees the receipt, processing,
granting, or denial of explosives licenses and permits. The Licensing
Center issues 23 different types of licenses and permits governing the
manufacture, importing, sales, and use of explosives. Licenses and
permits are specific to the class of explosives – high explosives, low
explosives, blasting agents, fireworks, and black powder. The ATF’s
Enforcement Programs and Services Division oversees the regulatory
activities carried out by ATF Inspectors located throughout the ATF’s 23
Field Divisions. The ATF’s Criminal Enforcement Division, comprised of
Special Agents, is responsible for investigating illegal commerce and use
of explosives.

       In addition to the ATF, several other federal agencies have roles in
overseeing the manufacture, transport, sale, or use of explosives. For
example, the Department of Labor’s (DOL) Occupational Safety and
Health Administration is responsible for ensuring the safety of workers
who manufacture explosive materials. The Mine Safety and Health
Administration, also part of the DOL, is responsible for standards that
protect workers who use explosives in mines and quarries, and operates
under a Memorandum of Understanding with the ATF related to
regulatory inspection activities. The Department of the Interior’s Office of
Surface Mining is responsible for limiting damage from blast effects, such
as ground vibration and flying rocks near coal mines. Within the
Department of Transportation (DOT), the Federal Motor Carrier Safety
Administration is responsible for enforcing laws and regulations related
to transporting explosives over highways. The DOT Research and Special
Programs Administration is responsible for enforcing packaging and
labeling standards. The Coast Guard, which is part of the Department of
Homeland Security, is responsible for enforcing laws and regulations
related to transporting explosives on the nation’s waterways.



       13   The explosives regulatory functions of the ATF are found at 27 C.F.R.
Part 555.




U.S. Department of Justice                                                          2
Office of the Inspector General
Evaluation and Inspections Division
       The ATF’s pre-SEA inspection activities. Prior to the enactment of
the SEA in 2002, the ATF’s explosives regulation was governed by Title XI
of the Organized Crime Control Act of 1970.14 In fiscal year (FY) 2001,
the ATF conducted 4,179 explosives-related inspections. Of those, 3,324
were compliance inspections, 839 were new application inspections, and
16 were conducted in response to referrals from the ATF’s Criminal
Enforcement Division. Compliance inspections conducted on licensees
and permit holders included, but were not limited to, inspection of
storage magazines, records of inventory and sales, and compliance with
ATF administrative rules. The ATF conducted application inspections
before issuing new or renewal licenses or permits. In FY 2001, there
were 9,084 federal explosives licensees and permit holders. Based on the
data provided, the ATF conducted compliance inspections on 37 percent
of licensees and permit holders during that year.

      In response to the terrorist attacks of September 11, 2001, the ATF
ordered most of its approximately 500 Inspectors to conduct on-site
inspections of all explosives licensees and permit holders in and around
major metropolitan areas. In the approximately 120 days following the
attacks, this unprecedented special inspection effort resulted in over
5,700 inspections. The ATF characterized these inspections as having a
two-fold purpose. The first was to discover and correct any obvious or
egregious violations of law or regulations that would facilitate terrorist
access to explosives. The second was to encourage licensees and permit
holders to increase their vigilance and to report any suspicious activity,
purchases, or requests for information, especially from individuals with
whom they had not previously done business. In addition to the 5,700
special post-September 11 inspections, the ATF conducted 4,487
explosives-related inspections in FY 2002. Of those, 3,450 were
compliance inspections and 1,037 were new application inspections.

       The requirements of the Safe Explosives Act. The Homeland
Security Act of 2002, of which the SEA is a sub-part, transferred all of
the ATF except its alcohol and tobacco tax enforcement and revenue
collection functions from the Department of the Treasury to the
Department of Justice (the Department). The SEA contains five major
provisions regarding the regulation of explosives, which are described
below. The first two provisions became effective on January 24, 2003,

       14 P.L. 91-452. Partially as a result of the ATF’s growing law enforcement and

regulatory responsibilities, the ATF was transferred from the Internal Revenue
Service and became an independent entity within the Department of the Treasury in
1972. In January 2003, the ATF was transferred from the Department of the
Treasury to the Department of Justice as directed by the Homeland Security Act.




U.S. Department of Justice                                                              3
Office of the Inspector General
Evaluation and Inspections Division
60 days after the law was enacted on November 25, 2002. The last three
provisions became effective on May 24, 2003, 180 days after enactment.

       Provision one added three new categories of persons prohibited
from receiving or possessing explosives — aliens (with limited
exceptions), persons who have been dishonorably discharged from the
military, and individuals who have renounced their United States
citizenship. These categories were added to the pre-existing list of
categories of prohibited persons that included convicted felons or
individuals under felony indictment, fugitives, users of and persons
addicted to controlled substances, and persons who have been
adjudicated mental defectives or committed to mental institutions.15

      Provision two requires that manufacturers and importers of
explosives provide samples of their products as well as information on
the chemical composition and other information to the ATF’s National
Laboratory upon request.

       Provision three requires that all persons who receive explosives
must hold a federal explosives license or permit. The SEA also created a
“limited permit,” which authorizes the holder to purchase and use
explosives only within his or her state of residence on no more than six
separate occasions during the 1-year term of the permit. Prior to the
SEA, persons who transported, shipped, or received explosives in
intrastate commerce were not required to obtain a federal license or
permit. The “user permit,” which existed prior to the SEA, authorizes the
holder to receive unlimited amounts of explosives in interstate commerce
during the 3-year term of the permit.

      Provision four requires that Responsible Persons of companies that
manufacture, sell, or use explosives (e.g., corporate officers, site
managers) submit detailed personal information, including fingerprints
and photographs, to the ATF. In addition, employees whose jobs afford
them access to explosives are required to submit Employee Possessor
Questionnaires (EPQs). (See Appendix II.) The EPQs are used by the
ATF to conduct background checks to verify that the employees are not
prohibited persons.

        Provision five requires that the ATF perform on-site inspections of
all licensees and permit holders at least once every three years, with

       15    The SEA allowed for prohibited persons to be eligible to apply to the ATF
for relief from federal explosives disabilities.




U.S. Department of Justice                                                               4
Office of the Inspector General
Evaluation and Inspections Division
certain exceptions, to determine compliance with federal explosives
storage regulations. For licensees and permit holders, the ATF must
verify, by on-site inspection, that new applicants’ and renewal applicants’
explosives storage facilities meet federal safety and security regulations.16

      The ATF’s official workload estimates for implementing the Safe
Explosives Act. According to ATF officials, the ATF made limited
attempts to determine the number of individuals who would need to
apply to the ATF for an explosives license or permit. In 2002, the ATF
Acting Director testified before a Congressional subcommittee that the
SEA would cause the population of licensees and permit holders to
“double, triple, or even quadruple” from the pre-SEA total of
approximately 9,000.17

      In developing its estimates of the potential population of licensees
and permit holders, the ATF relied heavily on information provided by
one explosives industry group. The group supplied the ATF with
information on intrastate explosives sales to unlicensed individuals.18
The ATF used the information to estimate the number of individuals who
might be required to obtain a federal license or permit. ATF
Headquarters officials also attempted to determine the potential
population by surveying ATF Area Supervisors about state explosives
laws in their areas. However, according to ATF Headquarters officials,
the information gathered from the Area Supervisors was not helpful and
was not used in developing the ATF’s projections.

     Using this information, the ATF prepared official estimates for the
Congressional Budget Office as well as for the Acting ATF Director’s

       16  For first-time “limited permit” applicants, the ATF is not required to
conduct on-site inspections of storage sites. Instead, the ATF may verify, by
inspection or other appropriate means, that acceptable storage facilities exist. For
the first and second renewal of “limited permits,” the ATF may continue to verify
storage by other appropriate means. However, if an on-site inspection has not been
conducted during the previous three years, the ATF must, for the third renewal and
at least once every three years after that renewal, verify by on-site inspection that the
permit holder has acceptable storage facilities.

       17 Testimony of Bradley Buckles before the House of Representatives,

Committee on the Judiciary, Subcommittee on Crime, Terrorism, and Homeland
Security, hearing on H.R. 4864, the Anti-Terrorism Explosives Act of 2002, June 11,
2002.

       18 As noted earlier, intrastate purchase and use of explosives were not ATF-
regulated activities prior to the passage of the SEA.




U.S. Department of Justice                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
testimony before Congress.19 The ATF also used the estimates to plan for
the establishment of a National Explosives Licensing Center staffed by
approximately 40 people to process the expected large increase in
applications. Based on cost factors associated with the expected
increase in staff, the ATF decided to place the center in Martinsburg,
West Virginia, at an estimated cost of $4 million, rather than expand its
existing licensing operations in Atlanta, Georgia. In addition, based on
the projections, the ATF planned to conduct SEA training for all of its
Inspectors and up to 250 of its Special Agents.

      However, the population of licensees and permit holders did not
increase as much as projected by the ATF. Since the SEA was enacted in
November 2002 through September 2004 the population of licensees and
permit holders has risen to 12,152, an increase of only about 3,500, not
the 18,000 to 36,000 increase projected by the ATF.20 According to the
Acting ATF Director at the time and the ATF Assistant Deputy Director
for Enforcement Programs and Services, the population did not increase
as expected because ATF Headquarters officials did not anticipate that
most unlicensed explosives users would hire contract blasters rather
than apply for their own federal permit or license. Typically, contract
blasters provide services such as destruction of beaver dams and the
removal of tree stumps or large rocks. Figure 1 depicts the trend in the
population of federal explosives licensees and federal explosives permit
holders, along with license and permit application trends.




       19   House Report 107-658.

       20ATF report, “FEL & FEP populations as of 09/29/2004 - end of FY 2004,”
November 8, 2004.




U.S. Department of Justice                                                        6
Office of the Inspector General
Evaluation and Inspections Division
            Figure 1: New and Renewal Explosives License and
                Permit Applications Received, 2001-2004

  14,000                                                        Licensees
                                                                and Permit
  12,000                                                        Holders

  10,000                                                        License
                                                                Applications
   8,000

   6,000                                                        Permit
                                                                Applications
   4,000

   2,000                                                        Ltd. Permit
                                                                Applications
       0
             FY 2001      FY 2002      FY 2003       FY 2004
Source: Data provided by the ATF’s National Licensing Center.

       ATF efforts to inform industry of the SEA and to issue regulations.
To notify industry members about the SEA, the ATF sent letters to
licensees, posted frequent updates to the ATF website, and
communicated with industry groups. For example, four days after the
SEA was enacted, the ATF issued open letters to industry members
regarding the provisions of the SEA. In the course of the next month, the
ATF distributed fact sheets, press releases, and a poster informing
unlicensed explosives
users about new                  Exhibit 1: ATF Informational Poster
licensing requirements.
(See Exhibit 1.)

      The ATF also
centralized its
implementation of the
SEA by appointing one
person as the ATF’s point
of contact and a small
team for implementing
the SEA. Under the
leadership of the point of
contact, the ATF worked
to keep ATF employees
and explosives industry



U.S. Department of Justice                                                   7
Office of the Inspector General
Evaluation and Inspections Division
members informed about the SEA, coordinated meetings and
communication between the ATF and outside groups, and coordinated
the training of Inspectors to implement SEA provisions.

       The ATF issued formal regulations shortly before the Employee
Possessor provisions of the SEA took effect on May 24, 2003.21 The ATF
did not issue a Notice of Proposed Rulemaking, but instead issued an
Interim Final Rule two months prior to the effective date of the second
set of SEA provisions.22 If it had issued a Notice of Proposed
Rulemaking, explosives industry members would have been afforded the
opportunity to comment on the ATF’s plans prior to their
implementation. Instead, the interim rule was issued in March 2003,
two months prior to the effective data of the SEA provisions related to
conducting background checks on Employee Possessors. Industry
groups began submitting comments on the Interim Final Rule in June
2003. During our review the ATF told us that it planned to issue its final
regulations for implementing the SEA by mid-2005. In its response to a
draft of this report, the ATF extended that target to “in or about” October
2006.

      On the whole, every industry group we spoke with said the SEA
was an important step toward increasing security. Group members said
that they did not object to the new categories of prohibited persons
created by the SEA and had few specific problems with the interim rule
developed and published by the ATF. The group members stated that
the ATF’s licensing process did not disrupt their operations and that
explosives licensees were generally informed about the SEA’s
requirements. One exception, which was resolved quickly, involved
Pennsylvania anthracite miners (see text box, next page).




       21 27 C.F.R. Part 555, Implementation of the Safe Explosives Act, Title XI,
Subtitle C of Public Law 107-296; Interim Final Rule. Published in the Federal Register
on March 20, 2003.

        22 For most rules, agencies provide notices of proposed rulemaking so that the

public may review the proposed regulations and submit comments. The period during
which public comments are accepted generally ranges from 30 to 90 days. An agency is
required to consider comments received on proposed regulations. According to the
Office of Management and Budget, a Final Rule “generally incorporates a response to
the significant issues raised by commenters, and discusses any changes made to the
regulation in response.” ATF Headquarters officials stated that, due to time constraints
and the lengthy time involved in the usual notice and comment rulemaking process, the
agency decided to issue interim regulations. A Final Rule has yet to be issued.


U.S. Department of Justice                                                            8
Office of the Inspector General
Evaluation and Inspections Division
        Industry members, however, did
                                                     Pennsylvania Anthracite Miners
express concern about how the ATF
initially interpreted the SEA’s impact                Despite the ATF’s efforts to inform
on explosives transportation. The ATF            explosives industry members of SEA
attempted to increase its oversight of           regulations, a group of about 20
explosives transportation in the                 anthracite coal miners in rural
beginning of 2003. Citing the SEA’s              Pennsylvania failed to timely apply for
provision prohibiting aliens from                relevant ATF licenses.
handling explosives, the ATF took the
position that Canadian truck drivers                  After being contacted by the
and railroad operators should not be             miners’ Congressman, the Special Agent
                                                 in Charge and the Director of Industry
allowed to transport explosives into the
                                                 Operations of the ATF’s Philadelphia
United States after the DOT issued a             Field Division sent Special Agents and
regulation exempting these individuals           Inspectors to Pottsville, Pennsylvania, in
from the SEA’s provisions.23 The DOT,            June 2003 to process the licensing of
however, cited a statute granting the            the miners. Operating from hotel
department and its agencies the                  rooms, the ATF personnel conducted
authority to oversee all safety-related          electronic background checks, took
aspects of explosives transportation.24          fingerprints, and assisted the miners
                                                 with completing ATF forms.
       To resolve the dispute, the ATF
and the DOT asked the Department of              The Special Agent in Charge stated
                                            that the anthracite miners “were not in
Justice’s Office of Legal Counsel (OLC)
                                            our purview” prior to the enactment of
for a legal opinion on whether the SEA      the SEA, making it difficult for ATF staff
extended to explosives transportation.      to know about their operations.
The OLC concluded that the DOT could
exempt Canadian transportation
workers from being prosecuted under the SEA because the DOT is the
federal agency that oversees the transportation of explosives. However,
the OLC determined that since the DOT did not have a mechanism to
enforce the three prohibiting categories created by the SEA – aliens,
persons dishonorably discharged from the Armed Forces, and former
citizens of the United States who have renounced their citizenship – it
was within the ATF’s authority to enforce these prohibitions until the




       23 68 Federal Register 6083, February 6, 2003, Transportation of Explosives

From Canada to the United States Via Commercial Motor Vehicle and Railroad Carrier.
The rule stated that the DOT will rely on the Canadian government to conduct
background checks on all individuals transporting explosives into the United States.

       24   18 U.S.C. 845(a)(1).




U.S. Department of Justice                                                         9
Office of the Inspector General
Evaluation and Inspections Division
DOT promulgated regulations to do so.25 That was accomplished when
the Transportation Security Administration (TSA) issued a rule in May
2003 requiring “security threat assessments” for commercial drivers
authorized to transport hazardous materials in commerce.

       From the issuance of the OLC’s opinion in February 2003 until the
TSA issued its rule in May 2003, major transportation firms voluntarily
halted all explosives deliveries.26 Explosives industry group members
said that because the authors of the ATF rules were not familiar with
how the transportation industry operated, the regulations they wrote
could have shut down explosives commerce. The confusion arose
because, although the ATF previously had authorization to regulate
explosives transportation workers under the Organized Crime Control
Act of 1970, it did not have a mechanism to enforce this authority until
May 2003. At that time, the ATF began requiring all drivers hired to
transport explosive materials to complete a form certifying that they were
the individuals who would transport the explosive materials from a seller
to a buyer.27 The form required “drivers who wish[ed] to transport
explosive materials … complete [the] form before each transaction at a
distributor’s (seller’s) premises.”28 The form caused confusion among

       25Office of Legal Counsel opinion, Department of Transportation Authority to
Exempt Canadian Truck Drivers from Criminal Liability for Transporting Explosives,
February 6, 2003.

        26 68 Federal Register 23852, May 5, 2003, Security Threat Assessment for

Individuals Applying for a Hazardous Materials Endorsement for a Commercial Drivers
License; Final Rule. Beginning January 31, 2005, the TSA began requiring biographical
information and fingerprints from individuals wishing to obtain a new Hazardous
Materials Endorsement on their state-issued Commercial Driver’s License. Individuals
wishing to renew or transfer an existing endorsement will not be required to submit this
information until May 31, 2005. TSA background checks include a fingerprint-based
FBI criminal history records check, an intelligence-related check, and immigration
status verification. However, unlike the ATF’s regulations, under the TSA’s program,
applicants with certain criminal convictions will be allowed to possess an endorsement
if these convictions occurred more than seven years prior to an application and if the
individual has been released from prison for five years or more.

       27  Since 1971, the ATF imposed certain identification requirements upon
common or contract carrier employees. For example, the ATF required documentation
of the name, resident address, and identifying information of common or contract
carrier employees. The ATF also required information related to the employee’s driver’s
license number and identification document. The ATF provided the employees the
option, however, to omit the latter information if the driver was ‘‘known’’ to the
distributor.

       28   ATF Form 5400.8, revised May 2003.




U.S. Department of Justice                                                            10
Office of the Inspector General
Evaluation and Inspections Division
explosives industry members because they routinely use contract
carriers to transport explosives and often have no way of knowing the
identity of the specific driver who will deliver the shipment to the
purchaser.

       In September 2003, in light of the new TSA regulations
establishing DOT security threat assessment standards, the ATF stated
that the requirement was “unduly burdensome and unnecessary” and
discontinued the form.29 Instead, the ATF began requiring distributors of
explosive materials to verify the identity of persons accepting possession
of explosive materials for common or contract carriers, and required
distributors to record the name of the transporter and the name of the
driver in the distributor’s records.

       The SEA created a new type of explosives permit. For individuals
who use explosives on a limited basis, such as farmers who use
dynamite to remove tree stumps, the SEA created a new “limited” permit.
The Type 60 permit costs $25 and is valid for one year. It entitles permit
holders to the intrastate purchase and use of explosives up to six times a
year, actions that are tracked through the use of coupons.30 The renewal
fee is $12. The total 3-year cost, with renewals, is $49, while the cost of
a standard permit, which is good for three years, is $100. The Type 60
permit is the only permit for which the ATF issues, tracks, and collects
coupons.31 To prepare for issuing Type 60 permits, the ATF spent
$1.2 million to upgrade the Federal Licensing System (FLS). A portion of
the money was also used to connect FLS to criminal information
databases for the purpose of conducting background checks on
individuals seeking authorization to access explosives.

      ATF Headquarters officials estimated that between 10,000 and
15,000 intrastate users of explosives would apply for Type 60 permits
once SEA provisions became effective. After the second phase of SEA

       29 68 Federal Register 53509, September 11, 2003. In eliminating the form, the
ATF stated that it did not “believe that the elimination of this form will result in
diversion of explosive materials to criminal or terrorist use.”

       30 “Limited” permit holders redeem an ATF-issued coupon to purchase

explosives. Explosives dealers are required to submit the coupons they collect to the
ATF upon completion of each transaction.

       31 A portion of the $1.2 million was also used to upgrade the Federal Licensing

System to accept the category of Employee Possessors. ATF staff stated that most of the
programming effort, however, related to the creation of the Type 60 permit and its
associated coupon tracking system.




U.S. Department of Justice                                                              11
Office of the Inspector General
Evaluation and Inspections Division
provisions went into effect on May 23, 2003, it became apparent that the
ATF had overestimated the number of Type 60 permit applications that
would be filed. Between May and September 30, 2003, the ATF issued
416 Type 60 permits, all of which were due for renewal prior to
September 30, 2004. The ATF received only 372 renewal applications (a
90 percent renewal rate) in FY 2004. The total number of permit holders
at the end of FY 2004 (659) represents less than 3 percent of the ATF’s
highest estimates.

      ATF Headquarters staff told the OIG that they believed many
infrequent explosives users chose to hire contractors to perform their
explosives work rather than apply for a federal permit. Additionally, ATF
Headquarters staff noted that others may have applied for a 3-year
permit, which allows unlimited usage of explosives, costs about $50 more
than three Type 60 permits (original cost plus renewal fees), and does not
require permit holders to renew their permits annually. One industry
representative speculated that many infrequent explosives users did not
want to deal with increased insurance costs associated with their using
explosives and, instead, hired contractors.

      The licensing process. To determine the eligibility of individuals
applying to be Responsible Persons and Employee Possessors, the ATF
developed a partnership with the Federal Bureau of Investigation’s
(FBI) National Instant Background Check System (NICS) Section.32
This partnership was established with the approval of the Department
of Justice’s Office of Legal Policy (OLP), which wrote that “… only a
check conducted through the [NICS] would reveal prohibiting
information regarding mental health prohibitions, dishonorable
discharges, persons who have renounced their citizenship, and illegal
aliens, information maintained by the FBI solely in the NICS Index.”33




        32 Prior to the SEA, the ATF’s NLC personnel determined the eligibility of

Responsible Person applicants by querying the Treasury Enforcement Communications
System (TECS). However, TECS does not contain information related to the prohibiting
categories added by the SEA. Specifically, TECS does not contain information related to
aliens, persons who have been dishonorably discharged from the military, and
individuals who have renounced their United States citizenship.

       33 Letter from Frank A. S. Campbell, OLP Deputy Assistant Attorney General, to

Michael D. Kirkpatrick, Assistant Director in Charge, Criminal Justice Information
Services Division, FBI; dated January 10, 2003.




U.S. Department of Justice                                                          12
Office of the Inspector General
Evaluation and Inspections Division
       To meet the first phase of the SEA, which added three categories to
the list of prohibiting factors for individuals wanting to possess
explosives, in February 2003, the National Licensing Center requested
that the FBI begin conducting NICS background checks on Responsible
Person applicants. This decision was based on the fact that Responsible
Person fingerprint cards were already being sent to the same FBI facility
in which the NICS Section is located – the Criminal Justice Information
Services Division.
                                        The ATF Will Not Conduct Background Checks
       To meet the second                  On All Employee Possessors Until 2006.
phase of the SEA, which
required the ATF to conduct                   Due to the phased implementation required
                                        by the SEA, the ATF will not conduct background
background checks on
                                        checks on all Employee Possessors until 2006,
Employee Possessor                      when all explosives licensees and permit holders
applicants, in April 2003, the          will be required to report these individuals to the
ATF’s Office of Training and            ATF. Licensees and permit holders who filed new
Professional Development                or renewal applications prior to March 20, 2003,
trained NLC personnel to use            were not subject to SEA provisions related to
NICS E-Check. NICS E-Check              Employee Possessors and, therefore, are not
is an Internet-based program            required to report these employees to the ATF
used to query NICS.34                   until their licenses and permits – most of which
According to the Chief of the           are valid for three years – are due for renewal.
NLC, applications received
                                              Therefore, the SEA would not have prevented
after April 19, 2003, were
                                        the recent case of a convicted felon accused of
processed using NICS                    stealing ten sticks of dynamite from a Vermont
E-Check. The Chief stated               quarry where he worked. Although the employee
that NICS E-Checks of                   had worked at the quarry for more than three
Employee Possessors are                 months prior to the dynamite being discovered in
conducted by a contractor               his apartment by local police, the quarry owners
originally hired in mid-2002            were not required to submit the employee’s name
to perform clerical work.               to the ATF because their license application was
Through NICS E-Check, the               submitted one day prior to the March 20, 2003,
ATF contractor enters                   deadline for applications to be processed under
personal information from               the SEA.
Employee Possessor
Questionnaires into NICS.35


       34 The FBI initiated the NICS E-Check system on August 19, 2002. The system

was developed so that licensed firearms dealers could electronically query whether
potential customers are prohibited from possessing firearms.

        35 Personal information entered into NICS includes name, gender, date of

birth, and, if provided by the applicant, Social Security number. As of September
2004, at the FBI’s request, the ATF was preparing to include additional information,
(cont.)

U.S. Department of Justice                                                             13
Office of the Inspector General
Evaluation and Inspections Division
       Once an Employee
Possessor’s personal                   The FBI NICS System Does Not Have Access
information is entered, the            to Prohibiting Information From All States.
system queries three FBI
                                           Currently, 23 states do not share all
electronic databases – the
                                      criminal and civil case information with NICS.
Interstate Identification
                                      In these states, referred to as Point of Contact
Index, the National Crime             (POC) states, a state law enforcement agency
Information Center, and the           queries NICS and may also query state-run
NICS Index – to determine             databases before granting or denying a firearms
whether the individual is             purchase. Besides information related to
prohibited from possessing            criminal arrests, these databases may also
explosives.36 Individuals             contain information related to civil cases in
who receive a “hit” – a               which individuals were adjudicated to be
possible match with a name            mentally defective.
in one of the databases – are
referred to an FBI NICS                     According to NICS Section personnel, if an
                                      individual who resides in a POC state applies to
Legal Instrument Examiner
                                      the ATF to possess explosives, a NICS Examiner
for a final determination on          assigned to conduct the individual’s background
whether they are prohibited           check does not have the ability to access state-
from possessing explosives.           run databases. The fact that potentially
These Examiners review                prohibiting information may be maintained in
electronic case information           state databases that are not accessible to the
and may perform additional            FBI, and the information is not shared with the
legal research.37                     FBI through other means, limits the FBI’s ability
                                      to identify prohibited persons because, for
        During and after the          explosives-related background checks, the FBI
                                      only checks NICS – not any state-run databases.
background check process,
                                      Therefore, NICS may not identify prohibited
NICS E-Check provides the
                                      persons residing in POC states who apply to the
status of the check                   ATF to possess explosives.
(i.e., pending, proceed, deny,
delay). According to FBI
data, 88 percent of NICS E-Checks are completed on the day the check


such as driver’s license number, on the Employee Possessor Questionnaires to assist
with the background check process.

        36 The Interstate Identification Index maintains information on criminal

history; the National Crime Information Center maintains information on protective
orders, active arrest warrants, and immigration violations; and the NICS Index
maintains information provided by federal, state, and local agencies on persons
prohibited from possessing firearms and explosives.

       37  For example, a NICS Legal Instrument Examiner may research why an
individual listed as being on supervised release is under state supervision.




U.S. Department of Justice                                                            14
Office of the Inspector General
Evaluation and Inspections Division
is entered into NICS. Of those, 80 percent of E-Checks are processed
in about 90 seconds. Denial cases and cases that NICS Examiners are
unable to finalize within 30 days are electronically forwarded to the
ATF Brady Operations Branch (Brady Branch) in Martinsburg, West
Virginia, for further investigation.38 (See Figure 2 for NICS E-Check
completion times.) Therefore, the ATF categorizes NICS checks as
“pending” until an NLC contractor or ATF Legal Instrument Examiner
logs into NICS E-Check to retrieve the final outcome of the query and
enters that information in the FLS. The fact that background checks
are pending for some employees does not prevent a business from
receiving a license. In fact, explosives license and permit applicants
whose employees receive “hits” on NICS are still issued licenses and
permits despite the unconfirmed background status of those
employees. These licensees and permit holders are issued a Notice of
Clearance containing the names of their Employee Possessors and
their status — “cleared,” “denied,” or “in progress.” (See Appendix III.)




        38 The Brady Branch was created in response to the Brady Handgun Violence

Protection Act of 1993. For information on how the ATF acts on potential Brady Act
violations, see Review of the Bureau of Alcohol, Tobacco, Firearms and Explosives’
Enforcement of Brady Act Violations Identified Through the National Instant Criminal
Background Check System, OIG Report No. I-2004-006, July 2004. (See the OIG
website, at: Hhttp://www.usdoj.gov/oig/inspection/ATF/0406/final.pdfH.)




U.S. Department of Justice                                                             15
Office of the Inspector General
Evaluation and Inspections Division
   E-Checks
                         Figure 2: Time to Complete NICS E-Check

    60,000
               48,860
   50,000

   40,000


   30,000


    20,000


   10,000
                             2,555    1,052        328        1,904       837

               -
              Same Day       1 Day    2 Days     3 Days      4-30 Days   Over 30
                                                                          Days
                                        Days to Complete E-Check



  Source: FBI National Instant Background Check Section.


       Relief of Disabilities. According to data provided by the NICS
Section, between February 2003 and August 2004, 1,239 of the 53,544
individuals who applied to be a Responsible Person or Employee
Possessor received denials. About 1,100 of these applicants were
denied because they had been convicted of a felony. Under the SEA,
individuals determined to be prohibited from possessing explosives
may apply to the ATF’s Explosives Relief of Disabilities Section for
“relief” from federal regulations (i.e., an exception that will allow them
to possess explosives notwithstanding the prohibiting factors). As of
September 1, 2004, 453 individuals had applied for relief. Of those,
299 had been adjudicated by the ATF. Of the 299 applicants, 173 were
granted relief.39




       39 Of the remaining 126 applicants, 59 were denied relief, 37 did not respond to

ATF requests for additional information and their applications were therefore not
processed, 21 withdrew their applications, 8 were filed by individuals whom the ATF
determined were not prohibited from possessing explosives, and 1 died before the ATF
completed the review of his application.


U.S. Department of Justice                                                          16
Office of the Inspector General
Evaluation and Inspections Division
Scope and Methodology of the OIG Review

      To review the ATF’s implementation of the SEA, we focused on the
ATF’s licensing and permitting operations, including procedures for
conducting background checks and granting relief for those individuals
determined to be ineligible to possess explosives. We also reviewed the
ATF’s implementation of changes in inspection activities required by the
SEA’s provisions. In addition, we reviewed the ATF’s plans to establish
the National Explosives Licensing Center and the National Laboratory
Center’s plans to implement the SEA’s requirement that importers and
manufacturers of explosives provide the Laboratory with samples of their
products.

       Interviews. We conducted in-person and telephone interviews with
personnel from ATF Headquarters and ATF Field Divisions as well as
staff at the National Licensing Center, the Arson and Explosives National
Repository, and the National Laboratory Center. Specifically, we
interviewed individuals from the ATF’s Enforcement Programs and
Services Directorate, Field
Operations Directorate, Science      Figure 3: ATF Field Division
and Technology Directorate,               Organization Chart
Training and Professional
Development Directorate,
and the Office of the Chief
Counsel. We also spoke
with former ATF
Headquarters officials,
including the former ATF
Acting Director.

       We interviewed
officials from the FBI’s
Criminal Justice
Information Services
Division and from the
DOL’s Mine Safety and
Health Administration.

      We interviewed three
explosives licensees and
representatives from three
explosives industry groups
– the American



U.S. Department of Justice                                            17
Office of the Inspector General
Evaluation and Inspections Division
Pyrotechnics Association, the Institute of Makers of Explosives, and the
International Society of Explosives Engineers.

       Field site visits. As part of our fieldwork, we conducted in-person
interviews with 2 ATF Special Agents in Charge, 4 Directors of Industry
Operations, 4 Area Supervisors, and 18 Inspectors at 4 of the ATF’s 23
Field Division offices – Atlanta, Chicago, Philadelphia, and Washington.
(See Figure 3, previous page, for a representational diagram of an ATF
Field Division.)

       We chose these sites based on their geographic location and size as
well as the number and types of explosives licensees and permit holders
they oversee. While at two of      Exhibit 2: A member of the OIG Inspection
these locations, we also               Team examining explosives storage
observed Federal Explosives                 bunkers near San Francisco
Licensee compliance
inspections. In San Francisco,
where the OIG was invited to
testify before a House
Committee on Government
Reform field hearing concerning
“Homeland Security:
Surveillance and Monitoring of
Explosive Storage Facilities,” we
toured explosives storage
bunkers (see Exhibit 2) and
interviewed ATF personnel as
well as state and local law
enforcement officials.

      In Atlanta, we interviewed Source: Ron Lewis, San Mateo County Times, with
four Legal Instrument               permission.
Examiners, one Program
Analyst, contractors, staff, and the Chief of the National Licensing
Center. At the ATF’s request, we attended an SEA training conference in
Providence, Rhode Island, specifically developed for Directors of Industry
Operations and Area Supervisors.

      Data. The ATF provided us with data related to licensing, relief
from disabilities, inspections, personnel, budgets, and explosives-related
incidents. In addition, the ATF provided relevant policies, work plans,




U.S. Department of Justice                                               18
Office of the Inspector General
Evaluation and Inspections Division
and training materials. We also examined data from the ATF’s Arson and
Explosives National Repository related to bombing incidents and
injuries.40

     The FBI provided us with data from the National Instant Criminal
Background Check System.

      Background research. Our background research on the SEA and
the ATF’s enforcement of explosives laws included congressional
testimony, legislation, and appropriations. While we focused on the
implementation of the SEA, we also identified several issues related to
the regulation and safeguarding of explosives in the United States that
were not addressed in the SEA but essential to ensuring public safety.
Although outside the authority of the ATF, the issues related to
explosives not currently subject to regulation and the limits of the ATF’s
authority to inspect explosives storage facilities.




        40 We examined ATF data based on the findings of an audit report, The Bureau

of Alcohol, Tobacco, Firearms and Explosives’ and Federal Bureau of Investigation’s
Arson and Explosives Intelligence Databases, OIG Report No. 05-01, October 2004. The
report found that ATF data related to bombing incidents was more current, reliable, and
accurate than data from the FBI’s Bomb Data Center data. (See the OIG website, at:
Hhttp://www.usdoj.gov/oig/audit/ATF/0501/final.pdfH.)


U.S. Department of Justice                                                          19
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


       Critical deficiencies in the ATF’s implementation of the
       background check and clearance process prevented the
       ATF from ensuring that prohibited persons are denied
       access to explosives. For example, we found no record
       that the ATF requested FBI background checks on 9
       percent of Employee Possessor applicants.         For 31
       percent of all Employee Possessor applicants, the ATF
       had not made a final clearance determination. In over
       half of the 1,157 cases in which the FBI reported finding
       potentially prohibiting information, the ATF did not act
       and, as a result, the individuals continue to be
       authorized to access explosives. Further, the ATF has
       not conducted the additional investigative work needed
       to complete background checks on 297 potential
       prohibited persons for whom the FBI could not confirm
       potentially     prohibiting   information   during     its
       background checks. Finally, we found that some of the
       largest employers of explosives workers in the United
       States have reported no new Employee Possessors to the
       ATF since May 2003, although the SEA requires that new
       Employee Possessors be reported within 30 days. The
       above shortcomings in the license processing system
       occurred, in part, because the ATF’s FLS contains
       significant structural deficiencies that limit its utility
       for monitoring the licensing process and for providing
       ATF management with information on critical aspects of
       licensing operations.

The ATF frequently failed to complete the background check and
clearance process to ensure that only cleared employees of license
and permit holders have access to explosives.

       A primary purpose of the SEA is to keep potentially dangerous
individuals from obtaining explosives. The Department of the Treasury,
Assistant Secretary of Enforcement, testified during a June 2002
congressional hearing on the SEA that “given the increasingly unstable
state of affairs in our world today, unchecked access to explosives is
unacceptable.”41

       41Testimony of Kenneth Lawson before the House of Representatives,
Committee on the Judiciary, Subcommittee on Crime, Terrorism, and Homeland
(cont.)

U.S. Department of Justice                                                   20
Office of the Inspector General
Evaluation and Inspections Division
      The SEA added three categories to the existing four categories of
individuals prohibited from having access to explosives, and further
required the ATF to conduct complete background checks to ensure that
prohibited persons are not granted access to explosives. To meet this
requirement, the ATF entered into an agreement with the FBI to conduct
NICS background checks on all Employee Possessors.42 After receiving
the results of the FBI NICS E-Check, the ATF may collect additional
information before determining whether an individual is authorized to
have access to explosives.

      However, we found that in some cases, the ATF failed to request
FBI NICS E-Checks on all Employee Possessor applicants. The ATF also
frequently failed to make final determinations on employee clearance
status based on the FBI NICS E-Checks and other information sources.
Because of these failures, in some cases, prohibited persons were not
denied access to explosives.

      The ATF failed to request FBI NICS E-Checks on all Employee
Possessor applicants. To determine whether the ATF had conducted the
required background checks on all Employee Possessors, we asked the
ATF to provide us with the number of Employee Possessors in the FLS
database. We requested this information because, as the licensing
process was initially explained to us by the NLC, each Employee
Possessor record in the FLS would have a corresponding and distinct
NICS E-Check. We compared the number of Employee Possessor records
in the FLS with the number of NICS background checks on Employee
Possessors recorded by the NICS Section and found that the ATF had
10,069 more Employee Possessor records in the FLS than the number of
background checks performed by the FBI NICS Section.43 (See Table 1.)




Security, hearing on H.R. 4864, the Anti-Terrorism Explosives Act of 2002, June 11,
2002.

       42 The ATF does not conduct NICS E-Checks on Responsible Persons, but

instead forwards fingerprint cards and other identifying information directly to the FBI,
and the FBI queries NICS.

       43The FBI’s NICS Section performed a total of 53,544 background checks on
Employee Possessors and Responsible Persons.


U.S. Department of Justice                                                             21
Office of the Inspector General
Evaluation and Inspections Division
          Table 1: Reported Employee Possessor NICS E-Checks
                     (February 2003 to August 2004)
                                                Pending/
 Agency            Approved       Denied          Open         Cancelled         Total
 ATF                   30,906          502           25,181            N/A         56,589

 NICS Section          44,540         1,157             751             72         46,520

 Discrepancy           13,634          655         (24,430)            N/A        (10,069)

Source: FBI National Instant Background Check System Section and the ATF National
Licensing Center, as of August 2004.

      In a meeting to discuss the discrepancy, ATF Headquarters officials
explained that the number of Employee Possessors originally reported to
us was overstated because an Employee Possessor could be associated
with a single application that requested multiple types of licenses and
therefore would appear in the FLS multiple times (once for each license
type). In these cases, the outcome of a single NICS E-Check would be
used to enter the Employee Possessor’s status in the FLS for each
license.44 Further, NLC staff explained, because there is no unique field
in the FLS to track individual NICS E-Checks, the FLS is incapable of
accurately reporting the number of persons checked through NICS E-
Check for comparison with NICS records.

       In contrast, we found FBI NICS Section data related to the ATF’s
NICS E-Check activities to be reliable. The FBI’s NICS E-Check system is
capable of accurately tracking and reporting on usage as each case is
assigned a unique control number and is associated with a specific user
identification number.45 In a conference call between the OIG Inspection
Team, NLC staff, and the FBI’s NICS Section, a manager at the NICS
Section told the OIG that the NICS data are complete and accurate
because, “It’s the system that did the checks and nothing has been
purged.” The ATF did not dispute that statement.



       44 Separate explosives licenses are required for different business activities,

such as manufacturing, importing, and dealing.

        45 To distinguish the NLC and NELC from other NICS E-Check users (more than

3,200 licensed firearms dealers), the NICS Operations Branch assigned the NLC its own
Federal Firearms License number.




U.S. Department of Justice                                                               22
Office of the Inspector General
Evaluation and Inspections Division
      Because we could not compare FLS and NICS data to determine
that the ATF had requested NICS E-Checks on all Employee Possessor
applicants, we requested from the ATF the first 1,000 Employee
Possessor records in the FLS database (sorted alphabetically), as of
January 12, 2005.46 After accounting for duplicate records, we
determined that the 1,000 records represented 683 individuals. We then
asked the FBI to query NICS records to confirm that the ATF had
requested NICS E-Checks on those 683 individuals. According to the FBI
NICS Section, it compared the ATF records that we provided to the NICS
automated system by exact name as requested. While manually
evaluating the automated system response, the FBI NICS identified
potential omissions. In approximately 23 percent of the cases, a NICS
check did not exist when searched by exact name only. A complete
search by Social Security number was not feasible because a Social
Security number was not provided for some individuals. Therefore, the
FBI responded to us by providing all records of NICS E-Checks on
Employee Possessors submitted by the ATF NLC for individuals within
the same alphabetic range as the ATF records (i.e., names beginning with
Aar through Amb).

      We manually compared the FBI data with the ATF data and found
63 Employee Possessors in the FLS that had no record of having had a
NICS E-Check. Because individuals can be Responsible Persons in
addition to being Employee Possessors, and therefore may have had their
background checks conducted in that category, we examined FLS data
and found that 4 of these 63 individuals were also Responsible
Persons.47 Therefore, we concluded that at least 59 of the 683 Employee
Possessors in the ATF FLS database (9 percent) had never received a
NICS E-Check. Of those 59, FLS records indicated that 34 individuals
were in a pending status and 25 had been cleared to access explosives.

      Unidentifiable NICS E-Checks. In reviewing and comparing the
ATF and FBI records, in addition to identifying individuals for whom no
NICS E-Check had been conducted, we identified instances in which the
NLC’s NICS user identification number had been used to conduct
background checks on persons who did not appear as Employee
Possessor applicants. In our review of the data, we determined that, due
to duplication as well as names being entered into only one of the


       46 Our sample of 1,000 records was statistically valid at the 95 percent

confidence level and had a 3.5 percent margin of error.

        Because the background check for a Responsible Person is more extensive, a
       47

NICS E-Check is unnecessary.


U.S. Department of Justice                                                        23
Office of the Inspector General
Evaluation and Inspections Division
databases, the FBI and ATF data comprised 1,193 different records. Of
those:

       •   967 were recorded in both the FBI’s NICS and ATF’s FLS
           databases, including those cases where only one FBI NICS
           E-Check was conducted for multiple FLS entries and vice versa;
       •   79 were recorded in the ATF’s FLS database but had no
           corresponding record in the FBI’s NICS database. These
           records represented 63 individuals; and
       •   147 were recorded in the FBI’s NICS database but had no
           corresponding record in the ATF’s FLS Employee Possessor
           database.

        On February 16, 2005, the OIG supplied the ATF with a list of
NTNs (the unique identifier used by NICS to track background checks)
for 145 of the 147 records which could not be found in the FLS list of
1,000 Employee Possessors (2 were found to be Responsible Persons, not
Employee Possessors). We asked the ATF to reconcile the discrepancy
between NICS and the FLS. On February 25, 2005, the ATF provided a
list of 121 records it had identified as Responsible Persons who were
listed in the FLS and matched the FBI-NICS NTN. In addition, the ATF
determined that five of the records were Employee Possessors listed in
the FLS under different names. The ATF stated that the remaining 19
records could not be found in the FLS. However, after reviewing the ATF-
provided list, we found that two records the ATF reported as “found” did
not match the person who was the subject of the FBI NICS E-Check. We
are concerned about the existence of NICS E-Check records for
individuals who cannot be confirmed as explosives license applicants or
their employees because it could indicate misuse of the NICS E-Check
system. The NLC’s use of the NICS E-Check system is intended for
legitimate background checks of explosives license applicants and their
employees. If these checks were not initiated on explosives license
applicants or their employees, it would be an abuse of the NICS E-Check
system.

      The ATF frequently failed to make final determinations on
employee clearance status based on the FBI NICS E-Checks and other
information sources. In reviewing ATF FLS data, we noted that 25,181 of
56,589 Employee Possessor records (45 percent) were in a “pending”
status. According to the procedures explained to us by the ATF NLC, a
pending status indicated that the ATF had not made a final
determination on clearance or denial.



U.S. Department of Justice                                             24
Office of the Inspector General
Evaluation and Inspections Division
       We determined that the ATF was not completing adjudications of
Employee Possessor clearances. According to FBI statistics, 88 percent
of all NICS E-Checks are completed within 24 hours, and we confirmed
with the FBI NICS Section that the ATF had retrieved the results of
almost all of the NICS E-Checks it submitted. According to the FBI NICS
Section, as of February 14, 2005, fewer than 100 E-Checks of Employee
Possessors had not been retrieved and remained pending in NICS. Cases
are automatically cleared from the NICS E-Check pending database when
an NLC Examiner queries NICS E-Check for the outcome of a
background check. The fact that few cases were held as pending in NICS
indicates that NICS checks had been completed and NLC staff had
retrieved the outcome of these checks. Therefore, we questioned why a
significant number of Employee Possessor records in the FLS were still
pending.

       When we discussed our findings with the Chief of the NLC and an
NLC Program Analyst, they stated that they were unaware of the number
of background checks appearing as “pending” in the FLS until we
requested the information in September 2004. Both stated that the NLC
already had issued the licenses and permits associated with these
“pending” Employee Possessors. The Chief of the NLC acknowledged this
is as “a major weakness” in the explosives licensing process and began
an initiative to address the discrepancy in November 2004.

      In discussing possible reasons for the high number of pending
records, ATF Headquarters officials hypothesized that Employee
Possessors may appear in multiple records but Legal Instrument
Examiners may have entered NICS E-Check results in only one of the
records and left the other records associated with the individual as
pending.48 According to the ATF, an individual could appear in multiple
FLS records if a business had applied for multiple licenses, either in one
application package or in separate applications.49

       To test the ATF’s hypothesis, we reviewed Employee Possessor data
for every license and permit application submitted to the ATF since the


        48 In the same meeting, the ATF officials noted that, due to the heavy workload

at the NLC, staff there may have entered NICS E-Check results for only one license per
Employee Possessor – not for every corresponding FLS record.

        49 NLC staff stated that it is possible for a company to submit separate

explosives license applications for each of its locations while only submitting one batch
of Employee Possessor Questionnaires. NLC staff stated that these applications could
arrive at the NLC in one package or within several days of each other.


U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
background check provisions of the SEA became effective in May 2003.50
We found that only 460 of the 8,940 explosives license and permit
applications submitted since May 2003 requested multiple license types
(i.e., user, manufacturer, importer, retailer) on the same application.51
These 460 applications requested a total of 1,030 explosives licenses and
included a maximum total of 1,460 possible duplicate Employee
Possessor records. Therefore, this explanation could account for no more
than 15 percent of the total discrepancy.52

       In addition to finding multiple license types associated with the
same application, we also found instances of multiple applications from
the same entity for different licenses (e.g., for different license types or
different locations) that might possibly explain the difference in Employee
Possessor records in the FLS and the number of NICS E-Checks
performed on these Employee Possessors.

      Therefore, in order to finally ascertain whether individual
Employee Possessors had a determination entered in at least one of their
records, we reviewed the first 1,000 Employee Possessor records listed
alphabetically in the FLS as of January 12, 2005. We found that 43 of
the 1,000 records were duplicates because an Employee Possessor was
associated with multiple licenses issued based on a single application.
In addition, we found that other individuals appeared more than once
because they were associated with separate applications from one or
more entities. As explained previously, we determined that the 1,000
Employee Possessor records represented 683 distinct Employee
Possessors.53 Of those 683 individuals:



       50   The OIG Inspection Team reviewed a list of all license and permit application
identification numbers (whether or not a permit or license was issued), the license and
permit numbers associated with each application, and the total number of Employee
Possessors associated with these applications.

       51   Applicants for explosives permits cannot apply for more than one permit type.

       52 The OIG Inspection Team calculated for all possible cases where a duplicate
record may have occurred in the FLS. Since the data did not include information on
specific Employee Possessors, but only total numbers, the Inspection Team considered
all Employee Possessors associated with a second, third, or fourth license as potential
duplicate records. Therefore, the actual number of duplicate Employee Possessor
records associated with the 460 applications could be substantially less.

        53 The OIG Inspection Team controlled for duplicates by using the last name,

Social Security number, and date of birth for each Employee Possessor record in the
FLS.


U.S. Department of Justice                                                             26
Office of the Inspector General
Evaluation and Inspections Division
       •   405 individuals represented by 526 records had a NICS E-
           Check status of “cleared” in each of their FLS records,

       •   11 individuals represented by 14 records had a NICS E-Check
           status of “denied” in each of their FLS records,

       •   211 individuals represented by 271 records had a NICS E-
           Check status of “pending” in each of their FLS records,

       •   53 individuals represented by 182 records had a NICS E-Check
           status of “clear” in at least one FLS record and “pending” in at
           least one other, and

       •   3 individuals represented by 7 records had a NICS E-Check
           status of “denied” in at least 1 FLS record and “pending” in at
           least 1 other.

       Based on the above analysis, the OIG determined that the data
does not support the ATF’s claim that a clearance or denial had been
entered into at least one FLS record for each Employee Possessor. As the
ATF-provided data shows, 31 percent (211 of 683) of the Employee
Possessors in our sample were listed in the FLS as pending in all of their
records. The average time that these individuals had remained in a
pending status was 299 days. Extrapolating from the rates found in our
statistically valid sample, the universe of 56,589 Employee Possessor
records in the ATF’s FLS database would represent approximately 38,650
individuals, of whom 11,943 would have neither a NICS E-Check result
nor a final ATF determination on whether the individual should be
allowed access to explosives.

       The ATF did not consistently act upon NICS determinations and as
a result allowed more than half of the individuals identified by the FBI as
potentially prohibited persons to have access to explosives. According to
FBI data, as of August 2004, 1,157 Employee Possessors had been
identified through the NICS E-Check as potential prohibited persons.54
However, according to ATF data, as of August 2004, only 502 Employee


        54 A “denied” response from NICS is only a recommendation. The ATF makes

the final determination whether an Employee Possessor applicant is to be denied
authorization to handle explosives. NICS E-Checks are not considered final because
the “hits” may be a result of prohibiting factors for gun purchases that are not
prohibiting factors under the SEA (i.e., misdemeanor domestic violence conviction,
order of protection).




U.S. Department of Justice                                                           27
Office of the Inspector General
Evaluation and Inspections Division
Possessor applicants had been denied the authority to legally possess
explosives. Over half of the individuals identified by the FBI as being
potential prohibited persons (at least 655 of 1,157) were still categorized
as “pending” in the FLS and were still authorized to have access to
explosives because the ATF had not made final determinations on their
clearance status.55

       After we alerted the ATF to the difference in the numbers of FBI-
and ATF-identified prohibited persons, the NLC examined a non-
statistical sample of 52 records of individuals identified by the FBI as
potential prohibited persons to determine their status in the FLS. On
November 6, 2004, the ATF reported to us that of the 52 individuals, 23
were listed in the FLS as being “denied” access to explosives, 17 were
listed as “pending,” and 2 were listed as “cleared.” The remaining ten
were initially not found in the FLS, but subsequently, the ATF reported
that it had found nine of these individuals. In January 2005, the ATF
corrected its initial response and reported that of the 52 individuals, 26
were listed in the FLS as being “denied” access to explosives, 20 were
listed as “pending,” 4 were listed as “cleared,” 1 was listed as “denied” in
1 FLS record and “pending” in another record, and 1 did not appear in
the FLS at all.56

      To determine the potential significance of the criminal records of
those individuals listed in the FLS as “cleared” or “pending” but who were
denied by the FBI NICS check, in November 2004 we conducted NCIC
background checks on the 17 individuals that the ATF initially reported
as pending in the FLS. Among those who received a NICS response of
“denied” but were still authorized to possess explosives by the ATF as of
November 6, 2004, the OIG found four convicted felons and three aliens

       55  According to Notices of Clearance issued by the ATF to licensees and permit
holders, Employee Possessors with a background check status of “pending” are
authorized to access and handle explosives under the provisions of the SEA. In such
cases, licensees are issued a Notice of Clearance listing the names of those Employee
Possessors as “pending.” See Appendix III for an example of a Notice of Clearance.

       56  After undertaking a subsequent extensive review of its FLS data, the ATF
explained that the errors in its initial response were due to programmer error. We note
that one of the Employee Possessors recorded in the FLS as “cleared” had been granted
Relief of Disabilities by the ATF and, therefore, is authorized to possess explosives. This
individual should not have been denied by the NICS Section, according to ATF
procedures for notifying the FBI when individuals are granted relief. An ATF
Headquarters official stated that the ROD section provides a monthly spreadsheet to the
NLC so that the NLC can update its reords. However, in March 2005, he also stated
that this had not been occurring in recent months and that his office is working with
NICS to resolve the issue.


U.S. Department of Justice                                                             28
Office of the Inspector General
Evaluation and Inspections Division
(one under an Immigration and Customs Enforcement removal order).57
For example:

       •    One individual had been arrested over 20 times since 1992 and
            was incarcerated and serving a 33-month sentence with the
            Arizona Department of Corrections on a felony theft charge, his
            third felony conviction.

       •    Another individual was a convicted felon serving a 3-year
            probation sentence for illegally leaving a “halfway house” prior
            to being formally discharged. The individual had been arrested
            at least 20 times since 1986, and had been convicted of 3
            felonies, including larceny and forgery. According to FBI data,
            the ATF initiated the NICS check on this individual on
            October 18, 2004, which we found was only six days after his
            latest release from jail. As of December 13, 2004, the individual
            was working at a building construction site, according to his
            probation officer.

       •    Another individual had been arrested ten times since 1985.
            Four of the arrests resulted in felony convictions – two incidents
            of burglary, and one each of larceny and property damage. In
            addition to the felony convictions, on July 6, 1999, the
            individual was arrested on misdemeanor charges related to
            domestic violence and sentenced to jail.

       •    Another individual had been arrested six times since 1979,
            including two arrests for violating an order of protection. He
            had been convicted four times on charges ranging from criminal
            mischief to assault and was sentenced to a total of five years’
            incarceration.

       Because the ATF had not denied these individuals but continued to
show them as pending in the FLS, they continued to have ATF
authorization to access explosives for as long as 14 months after being
identified as a prohibited person by the FBI.

      The ATF does not consistently complete background checks on
individuals for whom the FBI could not complete a NICS check. Since
May 2003, more than 800 cases of individuals whose names appeared in
NICS, but whom the FBI could not confirm as a prohibited person within

       57 Based on follow-up information provided to the OIG Inspection Team, these
individuals were still recorded as “pending” in the FLS, as of January 13, 2005.


U.S. Department of Justice                                                        29
Office of the Inspector General
Evaluation and Inspections Division
30 days (e.g., due to unavailability of court records), have been referred
by the FBI to the ATF to complete the background investigation. We
found that the ATF has failed to follow up and complete the
investigations of these individuals’ backgrounds to determine if they
should be prohibited from accessing explosives. In response to an OIG
inquiry, in September 2004 the ATF told us that the FBI had referred
856 Employee Possessor applicants to have their background checks
completed by the ATF.

       Subsequent to our inquiry, in November 2004 the ATF reported
that it had initiated an effort to determine how many individuals
associated with active explosives licenses remained in “pending” status.
As of January 2005, the ATF reported that 559 of the Employee
Possessors ultimately had been cleared or denied by either NLC Legal
Instrument Examiners or the FBI, or they were administratively
cancelled (e.g., because the license applications were withdrawn).
However, 297 of the individuals who could not be confirmed as
prohibited persons by the FBI remained in pending status and continued
to have the authority to possess explosives. We determined that the
background checks for these individuals had been pending for an
average of 363 days.58

        We examined the actions taken by the ATF to resolve the 297 cases
and determined that the ATF had not established procedures to ensure
that such cases are resolved. In similar cases related to potential
firearms sales, specialists at the ATF’s Brady Branch determine the
additional investigation required and assign the cases to the appropriate
ATF Field Division. The Field Division then conducts an investigation to
determine whether the individuals should be prohibited from possessing
firearms.59 Consistent with that practice, the FBI began forwarding
cases involving explosives Employee Possessors to the ATF Brady Branch
for processing, and a Brady Branch supervisor told us that the branch
initially planned to treat explosives referrals in the same way as firearms
cases. However, the supervisor said, the ATF Deputy Assistant Director,
Enforcement Programs and Services, verbally informed Brady Branch
personnel to set aside explosives-related NICS referrals because the Chief
of NELC would process the explosives-related referrals. One Brady

       58 In deriving this average, we deleted 23 records for which the ATF could not

provide the date that the record was initially entered into the FLS or for which the date
preceded the agreement between the ATF and the FBI regarding the use of NICS
E-Check at the NLC.

       59  As previously discussed, licensed firearms dealers query NICS to determine if
potential customers are prohibited from possessing firearms.


U.S. Department of Justice                                                             30
Office of the Inspector General
Evaluation and Inspections Division
Branch Specialist said, “We were told to do nothing with them when they
came in. They were put on hold. They weren’t in our mission, which is
to do firearms.” The OIG confirmed with the Chief of the NELC that one
of his first tasks after being assigned in October 2003 was to process the
NICS referrals by following up on the NICS response and determining if
the individuals should, in fact, be denied access to explosives.

       Although the Brady Branch did not investigate the cases, Legal
Instrument Examiners at the NLC continued to monitor some Employee
Possessor applicants whose background checks could not be completed
by the FBI. In some cases, the NLC Legal Instrument Examiner sent
queries (“arrest letters”) to Employee Possessor applicants asking for
information to assist in determining whether the individual was indeed
prohibited from possessing explosives. The letter also requested that the
applicant submit a completed fingerprint card to the ATF within 30
days.60 Otherwise, according to the letter, the applicant’s records would
be forwarded to the nearest ATF Field Division for investigation.61
However, as of January 2005, NELC officials we spoke with told us that
none of the 297 pending cases had been referred to an ATF Field Division
for investigation.

      Many explosives licensees have not reported hiring any new
Employee Possessors. The SEA requires that explosives licensees and
permit holders report all new Employee Possessors to the ATF within 30
days of their being hired. Under the provisions of the SEA, companies
should submit Employee Possessor Questionnaires for their new
employees, and the ATF should conduct the required background check
and issue the company an amended Notice of Clearance reflecting the
results of the check. However, our review of data provided by the ATF
found that few explosives licensees and permit holders have reported new
hires and received amended Notices of Clearance to provide the results of
the Employee Possessors’ background checks.



       60  In January 2005, ATF officials informed us that this letter has been renamed
a “criminal records letter” and now requests that applicants submit a fingerprint card to
the ATF within 45 days.

        61 The Chief of the NLC stated that she was not aware of this letter until

September 2004. According to the Chief, ATF Headquarters officials updated an
existing “arrest letter” used to seek information from individuals seeking Federal
Firearms Licenses without her knowledge. Individuals seeking a Federal Firearms
License are already required to submit a completed fingerprint card with their
application.




U.S. Department of Justice                                                            31
Office of the Inspector General
Evaluation and Inspections Division
      To identify licensees who reported newly hired Employee
Possessors, we asked the ATF for information on all companies covered
by the background check provisions of the SEA. We also asked for
information on all amended Notices of Clearance issued to those
companies. On February 11, 2005, the ATF provided data showing that
9,510 new licenses were issued from May 23, 2003, through January 31,
2005, and that 920 amended Notices of Clearance were issued during
that same 20-month period.

       However, we found that not all of the 920 amended Notices of
Clearance were issued as a result of companies reporting new employees.
Upon analyzing the ATF data, we found that 338 of the 920 amended
Notices of Clearance were issued in January or February 2004. (See
Figure 4, next page.) When we questioned the ATF about this, an NLC
Program Analyst told us that many of the “amended” Notices of
Clearance issued during that time were not actually issued in response
to reports of new employees, but were issued because the original Notices
of Clearance had been returned to the ATF by the U.S. Postal Service as
“undeliverable.” The Notices had been undeliverable because they were
mailed to field locations that did not have mailboxes or clearly marked
addresses (e.g., coal mines and quarries) rather than to the corporate
offices of the companies.62 The Program Analyst reported that he
personally initiated 327 of the amended Notices of Clearance and that “a
majority” of the notices he issued during that time were only
“re-mailings.” However, the ATF could not identify exactly how many of
the 920 amended Notices of Clearance were issued in response to reports
of new employees and how many were issued to correct address
problems.




       62The NLC corrected this problem in January 2004 by directing all Notices of
Clearance to corporate offices, according to the Chief of the NLC.


U.S. Department of Justice                                                            32
Office of the Inspector General
Evaluation and Inspections Division
                        Figure 4: Amended Notices of Clearance
                               May 2003 – January 2005
 250



 200



 150



 100



 50



 0
       May    Jul    Sep    Nov    Jan     Mar    May    Jul    Sep    Nov    Jan
       2003   2003   2003   2003   2004    2004   2004   2004   2004   2004   2005

                                          Month



Source: ATF National Licensing Center.
      Our further examination of the records of amended Notices of
Clearance found that 43 of the 920 Notices were duplicates. We asked
the Program Analyst about these cases, and he explained that the
duplicate entries did not mean that more than one amended Notice of
Clearance had been sent. Instead, he explained, the certificate printing
was done using batch processing. Therefore, several “print orders” could
be entered into the FLS during the day, but only the last amended Notice
of Clearance entered into the system would be printed at the end of the
business day. Overall, because some of the 920 amended Notices of
Clearance were due solely to address errors, and some of the Notices
were duplicates, we estimate that the number of actual amended Notices
of Clearance issued in response to reports of new employees is, at most,
about 700. That indicates that less than 8 percent of the 9,510
explosives licensees covered by the SEA had reported any new hires to
the ATF between May 2003 and January 2005.

      Although a low percentage of companies had reported new
employees and received amended Notices of Clearance, many companies
may be small or family-owned businesses that may have minimal
turnover. Because larger companies are more likely to experience
turnover, we examined the data related to the 50 licenses (held by a total
of 26 companies) with the highest number of related Employee


U.S. Department of Justice                                                           33
Office of the Inspector General
Evaluation and Inspections Division
Possessors.63 We found that a total of 25,385 Employee Possessors were
associated with the 50 licenses. Since May 2003, new employees had
been reported by the companies for 26 of the licenses.64 No new
employees had been reported for the remaining 24 licenses, which
represented a total of 13,380 Employee Possessors, according to the
original applications.

       If new Employee Possessors are not reported when they are hired,
the ATF may not know to conduct the required background check until
their employers’ licenses must be renewed or until compliance
inspections are conducted. We reviewed the ATF’s procedure for
conducting compliance inspections and confirmed that it includes steps
to identify new, unreported employees. During the compliance
inspections, Inspectors are instructed to compare the ATF NLC’s list of
Employee Possessors against a licensee-generated list of employees to
identify any employee changes.65 However, the ATF is only required to
conduct compliance inspections on explosives licensees once every three
years. New employees would also be reported when the licensees submit
applications to renew their licenses, which also occur on a triennial
basis. If an employer fails to timely report new employees so that the
ATF can check their backgrounds, prohibited persons could have access
to explosives until the next time that employer’s permit or license is
renewed or a compliance inspection is conducted.




       63 The 26 companies held multiple licenses because each business location
requires a separate license.

       64  Some of these companies sent in more than one report of new employees. In
total, the 7 companies had received a total of 21 amended Notices of Clearance. We
note that the licensee with the most Employee Possessors (1,124) had not reported a
new Employee Possessor to the ATF since March 2004. A review of the company’s
website in February 2005 indicated that it was still operating and was actively hiring
supervisors for its coal mining operations.

       65 Inspectors are also instructed to interview at least one employee observed to

be handling or possessing explosives to verify that the individual is an Employee
Possessor cleared by the ATF and to ask if there have been “any suspicious job
applicants or employees leaving employment under possible criminal circumstances.”
The Inspectors are instructed to report the names of any such individuals to ATF
Criminal Enforcement.




U.S. Department of Justice                                                           34
Office of the Inspector General
Evaluation and Inspections Division
ATF information systems are ineffective for managing the explosives
licensing functions mandated by the SEA.

       The ATF’s FLS contains significant structural deficiencies that limit
its utility for monitoring the licensing process and providing ATF
management with information on critical aspects of licensing operations.
In addition to structural deficiencies, during this review we found
numerous instances of inaccurate, incomplete, and missing data in the
FLS database. Combined, these deficiencies prevent timely and effective
management of some of the most basic activities related to the ATF’s
explosives oversight responsibilities. The following summarizes some of
the significant shortcomings of the FLS for managing the explosives
licensing program.

      The FLS cannot be used to ensure that NICS E-Checks are
conducted on all Employee Possessor applicants during the licensing
process. One of the most critical functions of the explosives licensing
program implemented under the SEA is the conduct of a complete
background check on individuals applying to be Employee Possessors
before granting them clearance to have access to explosives. In order to
determine the eligibility of individuals applying to be Responsible Persons
and Employee Possessors, the ATF developed a partnership with the FBI
NICS Section. Under the agreement, the FBI conducts a complete
background check on Responsible Persons, including a check based on
fingerprints, and NICS E-Checks on Employee Possessors who apply to
the ATF for authorization to handle explosives.

      However, the FLS does not contain fields to confirm that
background checks have been initiated and completed. The FLS does
track the status of an Employee Possessor’s clearance and indicates
whether it is approved, denied, or still pending. As noted earlier in this
report, our review found that 61 of the 683 Employee Possessors whose
FLS records we reviewed and compared with corresponding FBI data had
no record of having had a NICS E-Check conducted. Notwithstanding
the fact that these individuals had a NICS status listed in their FLS
record, because the FLS does not contain a field to positively track
background checks, the system was incapable of notifying ATF
management that nearly 9 percent of Employee Possessor applicants
appear not to have had the required background checks.

      The FLS cannot be used to properly manage and report on the
clearance status of employees of explosives licensees. In addition to not
tracking the initiation and completion of background checks, the FLS
was not capable of accurately tracking and reporting on the status of


U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
Employee Possessor applications. The data provided by the ATF in
response to our initial requests for information on Employee Possessor
records in the FLS indicated that approximately 45 percent of all records
had a NICS E-Check status of “pending.” Because some Employee
Possessors have more than one record in the FLS, we examined a sample
of 1,000 records to determine whether a final determination was listed in
at least one record for each Employee Possessor. We found that, after
accounting for multiple entries, about 31 percent of all Employee
Possessors were listed as pending in all of their records. These
individuals had been held in pending status for an average of 299 days.

      The high volume of records in a pending status, and the long
duration that they remained in that status, occurred because the FLS is
not designed to notify ATF management of status problems. For
example, the FLS does not provide ATF management with aging reports
that would identify the number of Employee Possessor records remaining
in pending status for specified timeframes (e.g., 0 to 30 days; 30 to 60
days). Given the quick response time and very few “hold” responses for
background checks provided by the NICS Section (see page 16), the
number of records remaining in a pending status for long periods should
be minimal.

       The FLS does not ensure that all records related to the clearance
status of Employee Possessors are current and consistent. We found
that the FLS is not designed to prevent individual Employee Possessors
with multiple records from having a different status listed in each record.
Of the 683 individual Employee Possessors in the 1,000 FLS records
reviewed by the OIG, just over 8 percent showed multiple statuses in the
FLS. We found instances of an Employee Possessor listed as “cleared”
for one license and “pending” for another. In other cases, an Employee
Possessor was listed as “denied” for one license and “pending” for
another. This is a potentially significant deficiency. If the FLS does not
warn ATF management when an individual has different statuses listed
in different records, individuals prohibited from accessing explosives in
response to one license application could mistakenly be authorized
access to explosives because they are still “pending” in their records
related to other license applications.

      The FLS cannot be used to accurately track trends in the reporting
of new employees. Under the SEA, employers are required to report new
employees within 30 days so that the ATF can conduct the required
background checks. Once those checks are completed, the employers
are provided with amended Notices of Clearance reflecting the results of
those checks. However, we found that few employers had been issued


U.S. Department of Justice                                              36
Office of the Inspector General
Evaluation and Inspections Division
amended Notices of Clearance, indicating that they had not reported any
new employees. These included some of the largest employers of
explosives workers in the United States for whom having no new hires for
many months or years would be highly unlikely.

      The FLS is not identifying employers who have gone an extended
period of time without reporting any new Employee Possessors.
Moreover, the system does not track the reasons that amended Notices of
Clearance were issued. Therefore, the FLS cannot accurately distinguish
companies that received amended Notices of Clearance because they
reported new employees and those that received amended Notices of
Clearance for administrative reasons (e.g., reincorporation, address
errors). Because of these deficiencies, the ATF cannot effectively use the
FLS to identify companies that may not be complying with the reporting
requirements of the SEA.

      The FLS does not have sufficient error-checking mechanisms and
data entry guidelines to prevent the entry of faulty, inaccurate, or
inconsistent data. During our examination of more than 2,000 FLS
records as a part of this review, we found a high number of data errors
and inconsistencies in the FLS database. Examples of data errors and
inconsistencies we found include:

       •   missing data (e.g., middle names, name suffixes “Jr.” or “Sr.”);

       •   inconsistent data entry (e.g., inconsistent use of “The” as part of
           company name and inconsistent abbreviations – “The Z Corp.”
           versus “Z Corporation, The);

       •   misspellings of common names and words (e.g., “Julie” versus
           “Jullie,” “Operations” versus “Oprations”);

       •   different spellings of words or names entered from the same
           original documents (e.g.. same company name entered
           differently on three successive records); and

       •   illogical data (e.g., dates of birth in the future).

       Many of the errors occurred because the FLS is not designed to
reject data that is obviously incorrect, either because it is misspelled or
illogical. The number of data errors also indicates that the ATF does not
have an effective quality control program for checking and reporting on
the quality of data entry. Because of the errors, the data in the FLS is
difficult to use to track individuals applying to access explosives. The


U.S. Department of Justice                                                 37
Office of the Inspector General
Evaluation and Inspections Division
poor data quality makes it difficult for the ATF to effectively manage the
licensing process, generate or rely on standard reports, conduct system
searches, or accurately report performance. Those difficulties were
evident as the ATF attempted to respond to our data requests and as we
attempted to use the FLS data to ascertain whether individuals had been
properly processed.

      To effectively implement the SEA, the ATF requires a system that
accurately and completely tracks and reports on the number of
individual Employee Possessors allowed to work with explosives. While
we recognize that the ATF issued the explosives licenses and permits
required by the SEA timely and carried out the implementation with
minimal disruption to the explosives industry, the primary purpose of
the SEA is to keep potentially dangerous individuals from obtaining
explosives. The system deficiencies we describe above are a major
shortcoming that limits the ATF’s ability to achieve that primary purpose.

Recommendations

We make the following recommendations to help the ATF improve the
implementation of the Safe Explosives Act and more effectively regulate
explosives within the United States. The recommendations focus on
ensuring that prohibited persons do not have access to explosives.

We recommend that the ATF:

   1. Implement procedures to ensure that all Employee Possessor
      applicants receive a thorough background check.

   2. Establish milestones and controls to ensure that Employee
      Possessor applicants do not remain in a “pending” status in the
      FLS for extended periods. As an immediate action, NLC
      management should regularly generate an aging report for pending
      cases, setting priorities for resolving those cases that have been in
      a pending status for more than 45 days.

   3. Implement procedures to ensure the integrity, completeness, and
      accuracy of the Employee Possessor information in the FLS. To
      correct the current data problems, the ATF should conduct a
      100 percent cross-match of the names of individuals issued
      licenses and permits by the ATF with the names of individuals on
      whom the FBI conducted NICS checks, and then:




U.S. Department of Justice                                              38
Office of the Inspector General
Evaluation and Inspections Division
          — Conduct background checks on any individuals contained in
          the ATF licensing system but not confirmed as having been
          checked by the FBI.

          — Immediately recheck the license status of all individuals
          determined by the FBI to be prohibited persons and ensure
          those individuals are denied access to explosives.

          — For any individual that the FBI has recorded a NICS
          background check under the NLC’s NICS user identification
          number, but for whom the ATF has no record in its licensing
          system, determine whether the person is involved in the
          explosives industry. If the person is, enter the individual into
          the ATF’s licensing system, and, if not, conduct an investigation
          to determine who may have performed the background check
          and why.

   4. Implement quality control procedures, data entry protocols, and
      system modifications to ensure FLS data accuracy, including:

          — Modification of the FLS to ensure that an Employee
          Possessor has only one status, system-wide, no matter how
          many licenses or permits are associated with the individual.

          — Modification of the FLS to prevent the entry of illogical or
          incomplete data.

   5. Use existing NLC Employee Possessor information to provide a
      monthly listing to each Field Division of the licensees in their
      jurisdiction, the number of Employee Possessors, and the date the
      company last reported an Employee Possessor to determine the
      most egregious cases of licensees who have failed to notify the ATF
      of new hires.

   6. Take action to ensure that there is no unauthorized or
      inappropriate use of the FBI NICS E-Check system. As an
      immediate action, the ATF should cancel the NLC’s NICS user
      identification number and assign unique user identification
      numbers to each individual responsible for conducting the checks.




U.S. Department of Justice                                                 39
Office of the Inspector General
Evaluation and Inspections Division
       The ATF did not adjudicate appeals timely from
       individuals seeking reconsideration of their prohibited
       person status. The ATF’s procedures for conducting
       inspections of explosives licensees will not identify all
       Employee Possessors who have become prohibited since
       their last background check. Moreover, although the
       ATF has revised its explosives training for Inspectors, it
       will take up to seven years before all Inspectors attend
       the revised training. Finally, the ATF has made little
       progress in implementing the provisions of the SEA that
       authorized the collection and cataloging of samples of
       explosives at the ATF National Forensic Science
       Laboratory.

The ATF does not adjudicate appeals timely from individuals
seeking reconsideration of prohibited person status.

      We found that the ATF was not adjudicating Relief of Disabilities
applications in a timely manner. Individuals prohibited from possessing
explosives can apply to the ATF’s Explosives Relief of Disabilities (ROD)
Section for “relief” from federal regulations (i.e., an exception that will
allow them to possess explosives notwithstanding the prohibiting
factors). The ROD Section sends completed applications to the ATF Field
Divisions responsible for the geographic area in which the applicants
reside.

       At the Field Division, ATF personnel perform an Application
Investigation on the applicant; query NICS, Interpol, and Secret Service
databases; and forward fingerprint cards to the FBI to determine the
applicant’s criminal history. Upon completion of the Application
Investigation, the investigator submits a report to the ATF Resident Agent
in Charge for review. A Report of Investigation is then forwarded to the
ATF Special Agent in Charge, who makes a recommendation on whether
the applicant’s explosives privileges should be restored. Once the
completed Report of Investigation is returned to the ROD Section, the
case file is sent to the ATF Deputy Assistant Director, Enforcement
Programs and Services, who makes the final ATF determination to
approve or deny the application.66


       66 Applicants have the right to appeal ATF decisions to deny relief to a

United States District Court. Only one individual has appealed the ATF’s decision. In
that case, the Court upheld the ATF’s decision to deny relief from disabilities




U.S. Department of Justice                                                          40
Office of the Inspector General
Evaluation and Inspections Division
       As of January 2005, the ATF had not promulgated final regulations
for processing applications for Relief of Disability. However, office
procedure documents accompanying ATF Draft Order 3320.5 provided
timelines for processing applications, including field investigations and
review by ATF Headquarters. According to the timelines in the office
procedure documents, applications should be investigated and
adjudicated within a total of 74 days. According to the procedure
documents, ROD Reports of Investigation “should be thorough and
should be completed in as expeditious a manner as possible without
compromising investigative thoroughness,” which the documents define
as 60 days.67 The procedure also allowed 14 days for Headquarters
review and adjudication.

        To assess the timeliness of the ATF’s processing of applications for
relief, we compared processing times for adjudicated cases to the
timelines accompanying the Draft Order. From the implementation of
the SEA though September 1, 2004, 453 individuals applied for Relief of
Disabilities. Of those, 299 (66 percent) had been adjudicated by the ATF,
with most requests being granted. (See Figure 5, next page.) We found
that the adjudication times ranged from 1 day (for a case in which the
applicant withdrew his application) to 443 days (in which the applicant
was granted relief). Of the 299 cases, 21 were adjudicated in 74 days or
less, 265 were adjudicated in between 75 and 180 days, and 13 cases
took more than 180 days to adjudicate. Overall, the ATF took an average
of 150 days to investigate and adjudicate the applications for Relief of
Disabilities. We determined that most of the time taken to adjudicate the
cases was attributable to the time taken by ATF Special Agents to
complete their investigations.




       67 Besides interviewing applicants about the circumstances related to why they

are prohibited to possess explosives, Special Agents are advised to interview, where
applicable, character references, business competitors, spouses, employers, former
employers, neighbors, parole officers, prosecutors, case agents, and psychiatrists,
among others.


U.S. Department of Justice                                                         41
Office of the Inspector General
Evaluation and Inspections Division
                       Figure 5: Relief of Disabilities Adjudications
 ROD Applications

    200

    180
               174

    160

    140

    120

    100

      80
                                59
      60
                                              37
      40
                                                             21
      20                                                                     8
       0
             Granted          Denied      Abandoned       Withdrawn        Other*

Source: ATF Public Safety Branch.

* Includes individuals determined not to be prohibited from possessing explosives.

      In commenting on the time taken to process ROD applications, the
ATF Deputy Assistant Director, Enforcement Programs and Services,
stated that some Field Divisions are currently overburdened with ROD
applications and, therefore, are unable to complete Application
Investigations in a timely manner. We found that was not the case. We
did confirm that the number of ROD applications assigned to each Field
Division from February 2003 through July 2004 varied widely, ranging
from one application (Baltimore and Miami Field Divisions) to 58
applications (St. Paul Field Division). However, we found that there was
no correlation between a Field Division’s ROD investigation workload and
the average time that the Field Division took to process its ROD cases.
(See Figure 6, next page.)




U.S. Department of Justice                                                           42
Office of the Inspector General
Evaluation and Inspections Division
                                                     Figure 6: Average Days to Close ROD Cases
   Number of ROD                                                                                                                                                                                                                                            Avg. Days to Close
      Cases                                                                                                                                                                                                                                                     ROD Case

     70                                                                                                                                                                                                                                                                         180

                                                                                                                                                                                                                                                                                160
     60
                                                                                                                                                                                                                                                                                140
     50
                                                                                                                                                                                                                                                                                120
     40                                                                                                                                                                                                                                                                         100   Cases

     30                                                                                                                                                                                                                                                                         80
                                                                                                                                                                                                                                                                                      Avg
                                                                                                                                                                                                                                                                                60    Days to
     20
                                                                                                                                                                                                                                                                                40    Close
     10
                                                                                                                                                                                                                                                                                20

      0                                                                                                                                                                                                                                                                         0




                                                                                                                                                                                                                        San Francisco
                                                                                                             Kansas City
                                                  Nashville




                                                                                                                                                    Louisville
                                                              Los Angeles
                                        Chicago




                                                                                          Columbus



                                                                                                                           Washington




                                                                                                                                                                                                   Houston




                                                                                                                                                                                                                                                            Boston
                                                                                                                                                                                Dallas



                                                                                                                                                                                                             New York
                                                                            New Orleans




                                                                                                                                                                                                                                                  Phoenix
                                                                                                                                                                                         Detroit
                      Miami




                                                                                                                                                                                                                                                                     St. Paul
          Baltimore


                              Atlanta




                                                                                                     Tampa



                                                                                                                                        Charlotte


                                                                                                                                                                 Philadelphia




                                                                                                                                                                                                                                        Seattle
Source: ATF Relief of Disabilities Section. Note: “Average days to close” is defined as
the period from the date the application was received at ATF Headquarters to the date
that the case was finally adjudicated.

      Delays in processing ROD applications can cause problems for
individuals who work in the explosives industry, as well as for their
employers. Unlike the processing of the initial applications of Employee
Possessors, who continue to have access to explosives while their
applications are pending, denied Employee Possessors who are awaiting
adjudication of a ROD application are prohibited from possessing
explosives. As a result, their employers have to either reassign the
individuals to positions where they do not have access to explosives or
dismiss them from employment. However, almost 60 percent of the ROD
cases decided by the ATF as of January 2005 resulted in grants of relief
from the initial decisions to classify the individuals as prohibited
persons. Therefore, timely processing is essential to minimize
unnecessary disruptions to Employee Possessors’ careers, as well as to
the operations of their employers.




U.S. Department of Justice                                                                                                                                                                                                                                                            43
Office of the Inspector General
Evaluation and Inspections Division
ATF inspection procedures are inadequate to identify Employee
Possessors who have become prohibited persons since their last
background check.

       In addition to ensuring that new employees are not prohibited
persons, the ATF must ensure that previously reported employees have
not become prohibited persons since their initial background check.
Although the ATF work plan for compliance inspections contains steps to
identify new employees, the work plan is not adequate to ensure that
Inspectors identify previously reported Employee Possessors and
Responsible Persons who have become
prohibited persons since their initial ATF     The ATF National Repository
background check. Inspectors are                 Could Be Used to Improve
instructed only to conduct “random”              Inspections of Explosives
background checks on Employee                 Licensees    and Permit Holders.
Possessors and Responsible Persons to
                                                During the course of our review,
verify that they have not become            we determined that ATF Inspectors do
prohibited persons since their last NICS    not consistently review the ATF Arson
background check. The ATF work plan         and Explosives National Repository’s
does not specify how the random sample      electronic database of explosives
is to be selected or the number of          incidents and thefts (the Arson and
                                            Explosives Incidents System [AEXIS]),
random checks that should be
                                            prior to performing an explosives
conducted. Further, the work plan does      compliance inspection. ATF Inspectors
not require that Inspectors query NICS      could use information from AEXIS to
to conduct these rechecks. Instead,         determine whether a licensee has
Inspectors are instructed to access the     reported any thefts or missing
                                            explosives, but only one of the
Treasury Enforcement Communications
                                            Inspectors we questioned stated that
System and the National Crime               he routinely queried the database.
Information Center. Checks of these two
systems, however, are not as                    Repository staff said they have
comprehensive as the NICS E-Checks          encouraged   Directors of Industry
                                            Operations,  Area Supervisors, and
utilized by NLC personnel.68
                                                  Inspectors to use AEXIS. Despite this,
                                                  the Intelligence Research Specialist
      The ATF procedures for processing           who manages AEXIS stated that few
license renewal also are not adequate to          Inspectors have even registered to gain
ensure that Employee Possessors are               access to the database.
checked to ensure they have not become
prohibited persons. The ATF requests

       68 Besides NCIC information, a NICS E-Check queries sources of information on

individuals dishonorably discharged by the Department of Defense and individuals
adjudicated mentally defective, as well as Department of State information on
individuals who have renounced their United States citizenship. See Background
section for more discussion on this subject.




U.S. Department of Justice                                                        44
Office of the Inspector General
Evaluation and Inspections Division
NICS background checks on all Responsible Persons when an explosives
license or permit is renewed. As of November 2004, the Chief of the NLC
told us that the ATF was considering how to update the renewal
application form, including whether to require Employee Possessors to
re-submit Employee Possessor Questionnaires, which provide the NLC
the information with which to query NICS. At a meeting with ATF
Headquarters officials in January 2005, the OIG Inspection Team was
informed that the ATF recently decided to re-check Employee Possessors
through the NICS database. Since the ATF assumes that sufficient
personal information on existing Employee Possessors is already
available in the FLS, the ATF stated that it does not plan to require
existing Employee Possessors to resubmit an Employee Possessor
Questionnaire. Instead, the ATF will require licensees to submit an
“employee list” with their renewal application.

       We are concerned that the plans described by the ATF will not
enable it to accurately conduct background checks on Employee
Possessors at license renewal. During this review, the ATF encountered
considerable difficulties (discussed earlier in this report) in reconciling
data and providing accurate information on the numbers and status of
current Employee Possessors in response to our requests. Our review
showed that the FLS cannot be relied on for determining the current
status of Employee Possessors, as over 30 percent the individuals we
sampled did not have the results of their background check entered in
the FLS (see previous findings, p. 27). Moreover, we found that many
licensees do not appear to be informing the ATF of new hires, so there
are likely to be considerable mismatches between FLS records of
employees and the actual rosters of the companies.

      Using current records to match against a list of Employee
Possessor names will also be difficult because the ATF does not ensure
that names are entered in a standard manner and does not require
Social Security numbers from Employee Possessors. Consequently, the
ATF cannot electronically compare current Employee Possessors in the
FLS with a licensee-produced list. Instead, each name on the list will
have to be manually checked against the FLS by an NLC Legal
Instrument Examiner. That check will be onerous. Among other things,
the Examiners will have to determine whether similarly named
individuals are, in fact, one person; ensure that individuals associated
with multiple licenses are accurately documented in every record;
deactivate former Employee Possessors from the FLS; ensure that all new
hires have completed Employee Possessor Questionnaires; and perform
and enter the results of NICS E-Checks. Because of the above



U.S. Department of Justice                                                45
Office of the Inspector General
Evaluation and Inspections Division
deficiencies, we believe the ATF’s planned renewal process will be prone
to inaccuracies and difficult to properly manage.

      We also noted that, as of February 2005, the ATF had not informed
licensees of its planned renewal procedures. If these procedures are
implemented, over time, licensees will be required to track who in their
workforce is an Employee Possessor and whether he or she has
submitted an Employee Possessor Questionnaire. Therefore, if licensees
are required to produce lists of employees other than standard lists
produced by their personnel management information systems, they will
require sufficient notice to reprogram these systems or manually produce
these lists.

It will take up to seven years for all ATF Inspectors to complete the
ATF’s revised explosives training course.

      After the SEA was enacted, the ATF expanded its Advanced
Explosives Training course for ATF Inspectors from seven to ten days and
enhanced the training to include more product identification information.
In addition, the ATF told us that it intends to have all ATF Inspectors
eventually attend the revised Advanced Explosives Training course.69
The class, which accommodates 30 students, is offered three times per
year.70 The ATF stated that it plans to have 600 Inspectors on board by
January 2006.

       As of January 2005, 321 Inspectors have taken the Advanced
Explosives Training course, but only 74 of those took the revised course.
Assuming that none of the 247 Inspectors who took the unrevised course
take the revised course, it will take three years for all new ATF Inspectors
to attend the Advanced Explosives Training course. If the ATF carries
out its stated plan to have the 247 Inspectors who took the unrevised
course attend the revised training, it will be seven years before all ATF
Inspectors have attended the revised course.

       69  Because of the major changes to the Advanced Explosives Training course,
Inspectors who attended the training prior to 1999 were encouraged to retake the
course. The Program Manager, Industry Operations Training Branch, told the OIG
Inspection Team during our field work that the Advanced Explosives Training has
changed a lot since 1999. She recommended that those who attended the earlier
training should re-attend the revised course.

        70 ATF officials stated that not all training slots are allocated for ATF Inspectors.

For instance, employees from the Mine Safety and Health Administration, the
Consumer Product Safety Commission, and other agencies are allowed to attend the
Advanced Explosives Training course. On average, these non-ATF trainees occupy five
slots per course, according to ATF training officials.


U.S. Department of Justice                                                                46
Office of the Inspector General
Evaluation and Inspections Division
       Even though the enhancements to the Advanced Explosives
Training course are expected to improve the skills of ATF Inspectors, ATF
managers told us that they are concerned that the ATF still will lack a
core group of Inspectors with in-depth knowledge to oversee large-scale
or complex explosives inspections. The Director of the Enforcement
Programs Branch stated that he would like at least one Inspector in each
of the ATF’s Area Offices to be provided with “more specialized, advanced
training beyond the Advanced Explosives Training course, which is
basic.”

       Several of the Inspectors we interviewed told us that they do not
receive enough training on explosives products. For example, one
Inspector stated that she learns about new explosives products from
licensees. ATF Headquarters officials confirmed that learning about
explosives products from licensees is a knowledge acquisition strategy.
Almost all of the Inspectors we interviewed told the OIG that, at a
minimum, they need refresher training and that they also need better
access to advanced explosives training. Even Inspectors who have
attended the Advanced Explosives Training course stated that they do
not feel qualified to address all of the issues they encounter during the
course of inspections. The most frequently cited issue causing difficulty
for the Inspectors was calculating the quantities of explosives permitted
in storage magazines, based on magazine type and location, according to
ATF regulations.

      The OIG Inspection Team found that the ATF’s strategy was not
always clear to or well-received by explosives licensees. Industry
members we spoke with stated that they believed ATF Inspectors needed
better training. They were not aware that acquiring knowledge from
licensees was part of the ATF’s overall Inspector training strategy. For
example, several industry representatives told us that they do not feel
Inspectors are adequately trained to inspect various types of explosives.
One representative stated that he has to train Inspectors on the products
they inspect at his facilities.




U.S. Department of Justice                                             47
Office of the Inspector General
Evaluation and Inspections Division
       The ATF has taken                       Northeast Inspection Team
steps to improve product                       The ATF developed the Northeast
knowledge among Inspectors               Inspection Team (NEIT) in 1993 so
and supervisors. During this             that large-scale or complex explosives
review, the OIG attended the             licensee inspections would be
                                         conducted consistently across multi-
Directors of Industry
                                         site license holders by well-trained
Operations and Area                      Inspectors. According to its charter,
Supervisors Explosives                   the NEIT’s mission “is not to replace
Training held from August 30             inspection and intelligence activities at
through September 2, 2004,               the local level; rather, it is intended to
in Providence, Rhode Island.             enhance these capabilities.”
Among other topics, the                        The NEIT comprises 16
training provided a half day of          Inspectors from 6 ATF Field Divisions
instruction on product                   located throughout the northeastern
identification and use. In               United States. NEIT members
addition, the training included          volunteer for the team.
the use of “Team Inspections,”                 The NEIT is dispatched at the
an approach developed to                 request of Directors of Industry
supplement the small number              Operations and Area Supervisors with
of available expert Inspectors           the approval of ATF Headquarters
necessary to conduct large               officials. Inspection teams comprised
                                         eight NEIT members and, until 2004,
and complex explosives
                                         did not travel outside of the
inspections.71 (See text box.)
                                         northeastern United States.

       ATF Inspectors’ interpretations of explosives regulations lack
consistency. After the enactment of the SEA, the ATF trained every
Inspector on the provisions of the Act.72 However, ATF Headquarters
officials, licensees, and industry representatives told us that issues still
exist regarding the consistency of Inspectors’ regulatory interpretations.
For example, one licensee that operates nationwide stated that because
ATF Inspectors conduct inspections and interpret regulations differently
at various locations, he cannot develop a consistent corporate policy to

       71  Prior to the passage of the SEA, a majority of the Area Offices we visited relied
on one or two Inspectors to conduct most large-scale or complex explosives compliance
inspections. These Inspectors were considered experts in the area of explosives because
of their experience and training.

        72 The ATF had 180 days from the passage of the SEA to fully implement its

provisions, and the SEA included no specific funds for its implementation, including no
training funds. To ensure that all Inspectors fully understood the provisions and
requirements of the SEA, the ATF developed a SEA training program. Because of time
constraints and a lack of budget resources for the training, the ATF Industry
Operations Training Branch developed a program based on a “train the trainer”
approach.




U.S. Department of Justice                                                              48
Office of the Inspector General
Evaluation and Inspections Division
comply with ATF regulations. Another industry member we spoke with
complained that an ATF Inspector cited his company for storing
explosives too close to an “inhabited building” (a garage), although prior
Inspectors over almost 20 years had never categorized the structure as
an “inhabited building.” Whether the change in the category was correct
(either because the latest Inspector noted changed circumstances or the
prior Inspectors had been mistaken), the licensee told us that the
reasons for the new determination had not been made clear to him.

       An ATF official confirmed that the ATF is aware that Inspectors
from different Field Divisions often offer inconsistent regulatory
interpretations to explosive licensees and permit holders. When we
asked the reason for the inconsistency, he stated, “I don’t know if it’s the
training or the new people…. Inspectors need to be able to point to
regulations and fairly explain the meaning of the regulation and the
possible impact of not complying with the regulation.” He further stated
that some Inspectors do not understand the rulemaking process. For
example, the Notice of Proposed Rulemaking issued by the ATF prior to
the SEA has been cited prematurely by Inspectors on numerous
occasions as an in-force regulation.

The ATF has made little progress in implementing the provisions of
the SEA that authorized the collection and cataloging of samples of
explosives at the ATF National Forensic Science Laboratory.

      The SEA granted the ATF the authority to collect samples of
explosives and ammonium nitrate from manufacturers and importers.73
According to ATF Headquarters and National Forensic Science
Laboratory (National Laboratory) officials, the authority to collect
samples was intended to enable the ATF to develop databases of
explosives information and increase the ATF’s ability to trace explosives
used in crimes. During a June 2002 congressional hearing, the Acting
ATF Director testified that a library of explosives information “is essential
to ATF’s ability to prevent and solve bombings and to trace explosive
materials used in terrorist activities and other violent crimes by matching
residue with the manufacturers’ samples.”74 At the same hearing, the
       73 Additionally, the SEA granted the ATF the authority to collect information on

the chemical composition of explosives as well as product information, such as
packaging and brochures.

       74  Testimony by Bradley Buckles before the House of the Representatives,
Committee on the Judiciary, Subcommittee on Crime, Terrorism, and Homeland
Security, hearing on H.R. 4864, the Anti-Terrorism Explosives Act of 2002, June 11,
2002.



U.S. Department of Justice                                                            49
Office of the Inspector General
Evaluation and Inspections Division
Department of the Treasury Assistant Secretary of Enforcement stated
that the creation of such a library would afford the ATF “the opportunity
to solve, and perhaps prevent, future criminal and terrorist acts using
explosives.”75 The Chief of the National Laboratory reiterated the need
for current explosives libraries during our inspection. He stated that the
National Laboratory’s high-explosive gunpowder database is outdated
and that the National Laboratory’s “biggest problem” is its inability to
trace ammonium nitrate.

       However, we found that the National Laboratory has only recently
developed a systematic approach to collect, analyze, and catalog samples
of explosives as permitted by the SEA. During our review, the Director of
the National Laboratory told us that the ATF has only used its authority
to collect samples one time – to collect a model rocket motor. As of the
completion of our field work, the National Laboratory had not collected or
developed a systematic approach for collecting samples of ammonium
nitrate.

      Moreover, as of the completion of our field work in August 2004,
the ATF had developed minimal plans for collecting explosives samples
and creating the libraries of information authorized by the SEA. We
found that the National Laboratory’s plans to develop the databases
consisted only of a four-page document, written in 2002, which described
the potential use of explosives databases and the roles of the three
chemists and one program manager needed to oversee them. The ATF
had yet to develop comprehensive plans, funding requests, industry
notices, proposed regulations, or any other documents necessary to
implement the authority granted under the SEA. The ATF Director of
Laboratory Services stated that the National Laboratory’s plans to
implement this aspect of the SEA were contingent on funding and had
not been reexamined since passage of the Act.

      Planning for an electronic database to house explosives
information collected by the laboratory began in late August 2004. As
part of this review, the OIG contacted National Laboratory staff to
determine what, if any, progress had been made by the ATF to carry out
laboratory-related functions authorized by the SEA. On September 30,
2004, the ATF signed a contract with a software consulting firm to design

       75 Testimony by Kenneth Lawson before the House of the Representatives,

Committee on the Judiciary, Subcommittee on Crime, Terrorism, and Homeland
Security, hearing on H.R. 4864, the Anti-Terrorism Explosives Act of 2002, June 11,
2002.




U.S. Department of Justice                                                            50
Office of the Inspector General
Evaluation and Inspections Division
the database.76 According to the National Laboratory’s October 12, 2004,
operating plan, the ATF plans to formalize protocols for gathering
information from explosives manufacturers by June 2005 and, by July
2005, develop a prototype of the explosives database. At a meeting with
ATF Headquarters officials in January 2005, however, the OIG was
informed that the National Laboratory had only recently begun the
planning process for both the collection and analysis activities.

       One of the critical steps toward the collecting and analyzing of
explosives is the construction of an explosives storage facility. During
our review, the ATF had not begun planning this initiative. Subsequent
to the completion of the OIG’s field work in this review, the National
Laboratory began the planning process for constructing an explosives
storage facility, the first step toward enabling the laboratory to collect
and analyze explosives samples. In October 2004, the ATF contracted
the services of an engineering consultant to discuss and finalize designs
for an explosives storage facility at the laboratory.

The ATF’s progress at establishing a National Explosives Licensing
Center (NELC).

      In the ATF’s FY 2004 appropriations, Congress authorized the ATF
to create the NELC, stating, “The conference agreement includes …
$4,000,000 to upgrade databases and systems, space alterations, and
other costs related to creating the National Explosives Licensing Center
… at the Bureau of Alcohol, Tobacco, Firearms and Explosives National
Tracing Center.”77 The ATF selected a Chief for the NELC in October
2003. The Chief stated that, “on paper,” he assumed the title of Chief in
October 2003, but said that he continued his previous ATF duties at the
National Tracing Center until he was assigned staff.78 In May 2004,
       76  On September 30, 2004, the ATF signed a contract with Systems, Services &
Designs, Inc., an 8(a)-certified service disabled veteran-owned company, to design an
electronic database of explosives information collected at the laboratory. According to
the contract, the firm will “analyze existing databases of information related to the
formulation of explosives and smokeless powder, determine the functionality required
by ATF field agents, and identify additional information that is available to characterize
explosives and smokeless powder formulation. In addition, [the company] will consider
relevant database designs and formulate user interface requirements during
development of the working prototype.”

       77   House Report 108-401.

       78 The National Tracing Center, located in the same building as the NELC,

works with law enforcement agencies, firearms manufacturers, and gun dealers to
determine the manufacturing and sales history of firearms used in crimes.



U.S. Department of Justice                                                              51
Office of the Inspector General
Evaluation and Inspections Division
seven months after being appointed, the Chief traveled to Atlanta to
observe NLC operations for two weeks. The Chief stated that during the
visit he met “with Examiners and Contractors to develop an overview of
NLC operations.” When asked about his activities since being named to
head the NELC, the Chief stated that he had spent a considerable
amount of time ordering equipment and overseeing budgetary issues.

       In July 2004, the NLC began transferring licensing authorities for
new license applications – not renewal applications – to the NELC. As of
October 2004, the NLC has transferred these authorities for 32 states to
the NELC. However, as of September 2004, the Chief told us that he had
not yet developed any plans, timelines, or reports related to the transfer
of the remaining explosives licensing authorities to the NELC.
Nonetheless, the Chief stated that he expects the NELC to be fully
operational by August 2005. However, in September 2004, the ATF
Deputy Assistant Director, Enforcement Programs and Services, told the
OIG Inspection Team that the NELC will be fully operational “as soon as
they are able to handle it.” The Deputy Assistant Director said, “It will
take some time. I don’t know when.” In January 2005, ATF
Headquarters officials stated that the NELC was developing detailed
plans for the full transfer of licensing operations. However, we have not
seen these plans.

       To help us assess the adequacy of the planning activities related to
the establishment of the NELC, we met with management staff at the
NLC. The NLC carries out firearms licensing functions within the ATF
and has been handling explosives licensing functions pending the
establishment of the NELC, and are therefore well aware of the
requirement for implementing a full-scale licensing function. They stated
that, in their opinion, the NELC is not prepared to handle issues beyond
basic licensing. An NLC Program Analyst stated that the NELC has yet
to prepare for basic activities such as the delivery of application
materials, the handling and storage of inspection reports, data issues,
printing and controlling Type 60 permit coupons, processing address
changes, and numerous other functions.79

       We also found that the ATF had not promptly trained the Chief and
staff of the NELC. Two NELC Examiners – one hired in January 2004,

       79 Among other issues, the Program Analyst noted that the ATF needs to

determine NELC policies for managing official correspondence with licensees and permit
holders, communications with law enforcement officials, and arrangements with the
bank contracted to accept license and permit payments.




U.S. Department of Justice                                                         52
Office of the Inspector General
Evaluation and Inspections Division
the other in February 2004 – visited the NLC in June 2004 to observe the
operations there. The NLC staff members we spoke with described the
June 2004 visits by the NELC staff members as basic. One NLC staff
member described the June 2004 visit as a “cursory introduction” to the
ATF’s licensing operations. We also found that the ATF did not begin to
develop a training plan for the Chief and NELC staff until September
2004, almost a full year after the Chief was selected. As of October 2004,
the ATF had not scheduled training for NELC staff.

       The ATF’s timetable for transferring explosives licensing functions
from the NLC to the NELC may be affected by recent Congressional
direction to move the NLC. As part of the Consolidated Appropriations
Act of 2005, P.L. 108-447, December 8, 2004, the ATF received
$5.6 million “for the construction and establishment of the Federal
Firearms Licensing Center at the Bureau of Alcohol, Tobacco, Firearms
and Explosives National Tracing Center Facility.” This means that the
ATF NLC will be moved from Atlanta, Georgia, and collocated with the
NELC in West Virginia.

Recommendations

       We make the following additional recommendations to help the
ATF improve the implementation of the Safe Explosives Act and more
effectively regulate explosives within the United States. The
recommendations focus on improving the consistency of the ATF’s
oversight activities, completing the establishment of an explosives
licensing center, and implementing a process for collecting and
cataloging explosives at the ATF National Laboratory.

       We recommend that the ATF:

   7. Improve the consistency of regulatory determinations by
      designating a single point of contact at ATF Headquarters for
      Inspectors and explosives industry members. The point of contact
      should maintain a history of regulatory inquiries and post
      frequently requested information on the ATF’s website.

   8. Examine alternatives for speeding the delivery of the ATF’s
      Advanced Explosives Training course to all Inspectors, and develop
      a curriculum to build explosives expertise within the ATF’s
      Inspector workforce.

   9. Develop a detailed timeline for accomplishing the actions
      necessary to complete the implementation the National Explosives


U.S. Department of Justice                                              53
Office of the Inspector General
Evaluation and Inspections Division
       Licensing Center in Martinsburg, West Virginia, including the
       implementation of changes to the licensing and background check
       processes, the adjudication process for Employee Possessors, and
       the data systems that will support these processes.

 10. Develop comprehensive plans, funding requests, industry notices,
     proposed regulations, and other necessary documents to
     implement the authority granted under the SEA to collect and
     catalog samples of explosives at the ATF National Laboratory.




U.S. Department of Justice                                           54
Office of the Inspector General
Evaluation and Inspections Division
                             ADDITIONAL ISSUES


      In conducting this review, we identified several issues related to
the regulation and safeguarding of explosives in the United States that
while not addressed in the SEA nonetheless are relevant to public safety.
The following summarizes issues regarding explosives not currently
subject to ATF regulation and the limits of the ATF’s authority to inspect
explosives storage facilities.

      The ATF lacks the authority to regulate ammonium nitrate and
some commonly used explosives. The ATF does not have the authority to
regulate ammonium nitrate, binary explosives, and black powder in
quantities of less than 50 pounds.

       Ammonium Nitrate. The ATF lacks the             Exhibit 3: Cover of
authority to regulate ammonium nitrate, other           Pamphlet Sent to
than being authorized to collect samples from          Farmers by the ATF
manufacturers. This fertilizer, commonly used
by farmers, can cause a massive explosion when
mixed with diesel fuel oil. For example, the 1995
bombing of the Murrah Federal Building in
Oklahoma City was carried out with an illegally
constructed ammonium nitrate and fuel oil bomb.
Nearly 4,800 pounds of ammonium nitrate were
used in that bombing. Approximately 220 pounds
of ammonium nitrate were used in the 2002
terrorist bombing of a Bali nightclub.

       In July 2004, the ATF worked with The
Fertilizer Institute and the Association of American
Plant Food Control Officials in launching the
“America’s Security Begins with You” campaign.
The campaign urges those who handle ammonium
nitrate to implement security plans, maintain sales
records, and alert the ATF of suspicious activity
through a toll-free hotline. (See pamphlet cover at
right.) The Chief of the ATF’s Explosives Industry
Programs Branch stated that the program promotes
“increased vigilance” among those who sell and use
ammonium nitrate fertilizer.

     The Ammonium Nitrate Security Act was introduced in Congress in
September 2004 to require licenses for sellers of ammonium nitrate,


U.S. Department of Justice                                              55
Office of the Inspector General
Evaluation and Inspections Division
permits for purchasers of the fertilizer, and to authorize the ATF to
inspect ammonium nitrate storage facilities.80 The bill would also
require manufacturers, distributors, and retailers to immediately report
losses of ammonium nitrate to the ATF. Congress recessed without
taking action on the proposed legislation. However, the bill was recently
reintroduced in the 109th Congress.

       Binary Explosives. Binary explosives are explosives created by
combining two chemicals that are not, by themselves, explosive.
Because binary explosives need not be mixed until needed, they are safer
to store and transport. Typically, they are made from prepackaged
chemical ingredients, including oxidizers and flammable liquids or solids.
Until the compounds are mixed, they are not classified as explosives and,
therefore, are not subject to ATF regulation. However, once mixed,
binary explosives are subject to applicable federal requirements. A
person who regularly and continually combines compounds of binary
materials to manufacture an explosive (such as a large mining operation
that conducts mixing operations on site) is considered to be engaged in
the business of manufacturing explosives and is required to be licensed
as a manufacturer.

       Black Powder and Smokeless Powder. The ATF licenses
manufacturers and sellers of black powder, an explosive commonly used
in muzzle-loading firearms. However, other than requiring that
purchasers be at least 21 years old, the ATF has no authority to regulate
sales of less than 50 pounds of black powder. Because black powder is
relatively inexpensive (between $5 and $15 per pound), it is the most
common explosive used in pipe bombs. Additionally, the ATF does not
regulate smokeless powder, a more expensive explosive used in the
manufacturing of firearms ammunition. Developed in the late 19th
century to replace black powder, smokeless powder leaves minimal
residue in a gun barrel following its use. Approximately 10 million
pounds of commercial smokeless powders are produced in the
United States each year. The powder is about eight times as expensive
as black powder.

      The ATF does not have the authority to inspect all government-
owned explosives storage facilities. The ATF is authorized to conduct
regulatory inspections of explosives licensees and permit holders.81

       80   H.R. 5140.

       81   27 C.F.R. Part 555.24.




U.S. Department of Justice                                              56
Office of the Inspector General
Evaluation and Inspections Division
However, federal, state, and local government agencies are exempt from
ATF licensing and permitting requirements, although most are required
by law to store explosives in accordance with federal regulations.82
Therefore, according to ATF Headquarters officials, the ATF only inspects
government-owned explosives storage facilities when the owners of these
magazines invite the ATF to perform inspections. According to the ATF’s
Deputy Assistant Director, Enforcement Programs and Services, ATF
Inspectors conducted 39 inspections of government-owned explosives
storage facilities during FY 2003.

      The ATF has not cataloged the number of government-owned
explosives storage facilities in the United States. The ATF, itself,
operates 188 explosives storage magazines. There are far more
magazines operated by federal, state, and local law enforcement
agencies, which store explosives as evidence and for training purposes.
ATF Headquarters officials also stated that many transportation
departments and public universities maintain storage magazines.

       In August 2004, one month after explosives were stolen from state-
and federally-owned magazines in California, the House Committee on
Government Reform examined the issue at a field hearing in California.83
In September 2004, two members of the Committee introduced a bill
entitled, The Law Enforcement Explosives Storage Enhancement Act.84
The bill would have required security systems at magazines owned by
law enforcement agencies and would also have required states to report
to the ATF the locations of these magazines. The bill did not address
explosives storage facilities owned by government agencies not deemed
law enforcement agencies. Also in September 2004, a bill was
introduced that would expand the ATF’s control of explosives to include
detonable nitrate fertilizers.85 Both bills would have had significant
impact on the ATF’s operations and resources. Congress recessed

       82  27 C.F.R. Part 555, Subpart K – Storage. According to 18 U.S.C. § 845(a)(6),
federal government agencies are exempt from explosives storage requirements.

       83   Homeland Security: Surveillance and Monitoring of Explosive Storage
Facilities, Field Hearing Before the House Committee on Government Reform,
Subcommittee on National Security, Emerging Threats and International Relations,
San Mateo, CA, August 2, 2004.

      84 The bill – H.R. 5162 – was introduced in the House of Representatives on

September 29, 2004.

      85 The bill – H.R. 5140, Ammonium Nitrate Security Act – was introduced in the

House of Representatives on September 23, 2004.




U.S. Department of Justice                                                           57
Office of the Inspector General
Evaluation and Inspections Division
without taking action on the bills. As the OIG Inspection Team was
finalizing this report, the Government Accountability Office (GAO), at the
request of the sponsor and one co-sponsor of the Law Enforcement
Explosives Storage Enhancement Act bill, initiated a review of the safety
and security of government-owned explosive storage facilities.86

       We believe the ATF should critically consider the legislative
proposals and coordinate with the Department’s Office of Legislative
Affairs on the Department’s position with regard to these proposals.




         86 At an entrance conference to discuss the review with ATF Headquarters

officials in February 2005, GAO staff stated that the review would preliminarily focus on
explosives stored by law enforcement agencies. However, after discussing the scope of
the review, the ATF urged the GAO to also examine the condition of explosives storage
facilities maintained by state departments of transportation, state divisions of natural
resources, and colleges and universities.


U.S. Department of Justice                                                            58
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX I: DOMESTIC AND FOREIGN BOMBING INCIDENTS


Domestic bombing incidents

       According to data we obtained from the ATF’s Arson and
Explosives National Repository, law enforcement agencies in the United
States reported 349 non-incendiary bombing incidents in 2002, 362 in
2003, and 160 in the first nine months of 2004. The most common
substances used in these bombings were black powder, flash powder, or
common chemicals contained in household products that were combined
to make an explosive mixture.87 Over the almost 3-year period, these
substances accounted for 54 percent of all explosive materials used in
illegal actual bombing incidents.88 Of all bombings reported to the ATF,
18 percent involved explosives subject to the provisions of the SEA. Of
these, 91 percent of the incidents involved common fireworks or their
components. Pipe bombs were used in 47 percent of all reported
bombings.

      According to National Repository data, 8 people were killed and 49
people were injured by explosives from January 2002 through December
2004. Explosive powders, which may be obtained legally in quantities up
to 50 pounds without a license or permit, were the largest cause of
deaths and injuries. Over 50 percent of those killed and injured during
this period were victims of explosive devices containing black powder.
Twenty-five percent of those injured were victims of improvised
explosives devices, many of which containing common chemicals.

Non-domestic terrorist use of explosives

     The use of explosives is common in terrorist acts committed
abroad. According to Department of State reports, 43 of 355 attacks in
     87  The SEA did not change the regulations governing explosive powders that may
be easily and legally obtained in quantities up to 50 pounds without a license or permit.

      88 These totals include only actual bombings in which the bombs’ primary

component was something other than a flammable liquid. Since incendiary
bombings involve combustible materials that fall outside of the scope of the SEA,
they were not included. In addition, the totals do not include attempted bombing
(incidents in which an unexploded device was discovered) or premature explosions
(incidents in which the explosive device detonated before the bomber intended,
usually injuring the bomber). If all of the above categories were included, the total
number of bombings would have been 492 in 2003, 469 in 2002, and 239 in the first
nine months of 2004.




U.S. Department of Justice                                                              59
Office of the Inspector General
Evaluation and Inspections Division
2001 involved explosives, 83 of 198 in 2002 involved explosives, and 102
of 208 in 2003 involved explosives. In the 2003 attacks, a total of 625
persons were killed and 3,646 wounded. While the number killed was
100 fewer than the 725 killed during 2002, there was a sharp increase of
more than 1,600 in the number of persons wounded (2,013) in 2002.
Thirty-five U.S. citizens died in international terrorist attacks in 2003.
Of the 35, 26 were killed in bombings.

      According to Department of State data, the 2003 increase resulted
from numerous indiscriminate attacks on “soft targets,” such as places of
worship, hotels, and commercial districts that were intended to produce
mass casualties. Based on the descriptions of terrorist incidents
contained in the State Department’s 2003 “Patterns of Global Terrorism”
report, we determined that:

       •   20 incidents involved bombs or explosives in vehicles;
       •   27 incidents involved military ordinance (grenades, rockets, or
           land mines);
       •   9 incidents involved suicide bombers (non-vehicular);
       •   14 incidents involved unknown bombs or devices targeting
           buildings; and
       •   32 incidents involved unknown bombs or devices targeting
           people.




U.S. Department of Justice                                               60
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX II: EMPLOYEE POSSESSOR QUESTIONNAIRE




U.S. Department of Justice                             61
Office of the Inspector General
Evaluation and Inspections Division
                  APPENDIX III: NOTICE OF CLEARANCE




U.S. Department of Justice                            62
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX IV: COMMENTS FROM THE ATF




U.S. Department of Justice                      63
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            64
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            65
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            66
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            67
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            68
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            69
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            70
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            71
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            72
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            73
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            74
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            75
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            76
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            77
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            78
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            79
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            80
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            81
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            82
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            83
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            84
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            85
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            86
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            87
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            88
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            89
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX V: OIG ANALYSIS OF THE ATF’S COMMENTS


      On March 11, 2005, the Office of the Inspector General (OIG) sent
copies of a draft of this report to the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) with a request for written comments. We
requested that the ATF indicate its concurrence or nonconcurrence with
each recommendation, describe actions taken or planned in response to
the recommendations, and provide the completion dates of the actions.
The ATF responded to us in a memorandum dated March 25, 2005.

      The ATF concurred with six of our ten recommendations, did not
concur with three recommendations, and partially concurred with one
recommendation. Several of the ATF’s responses to our
recommendations failed to provide the ATF’s planned actions for
correcting the serious deficiencies documented in the report.

       Prior to responding to the report’s recommendations, the ATF
commented that it successfully implemented the Safe Explosives Act
(SEA), which it called the most significant change to Federal explosives
laws in over 30 years, within the required 6 months by realigning
existing resources. While acknowledging the OIG’s positive statements in
the report regarding the ATF’s efforts to inform explosives industry
members of SEA regulations and conduct initial compliance inspections,
the ATF stated that these statements contradicted other portions of the
report that expressed serious concern about ATF’s implementation of the
SEA.

       The ATF’s claim that it was successful at implementing the SEA
because it qualified all companies that needed permits under the SEA to
continue receiving explosives necessary for their businesses without
disruption is not fully accurate. While we found that the ATF issued
licenses to new applicants timely, many applicants seeking renewal of
their explosives licenses received Letters of Continuing Authority instead.
These Letters allowed the companies to continue operations until the
ATF could carry out renewal inspections required by the SEA. According
to the ATF, in the 17 months prior to May 24, 2003, the ATF issued 254
Letters. In the 17 months after the Employee Possessor provisions of the
SEA took effect, the ATF issued 1,301 Letters, a 512 percent increase.
As a consequence, the background checks on the Employee Possessors
of these companies were not conducted timely but were delayed until the
companies were inspected. In addition, as our report also documents,
the ATF has experienced significant difficulties in ensuring that
Employee Possessors associated with both new and existing licensees

U.S. Department of Justice                                              90
Office of the Inspector General
Evaluation and Inspections Division
have background checks, and that Employee Possessors determined to
be prohibited persons do not have access to explosives.

       We disagree with the ATF’s statement that our positive comments
regarding actions the ATF took to implement the SEA “directly
contradicts” other portions of the report that describe serious problems
we found in the ATF’s operations. Each OIG report seeks to provide a
balanced examination of the issues reviewed. Accordingly, we note
positive actions taken by an organization whenever appropriate.
However, it is not contradictory for us also to note shortcomings in those
same operations. Further, as the ATF stated on page 2 of its response,
its mission includes both “facilitating the lawful use of explosives while
ensuring the safety of all Americans.” Actions that contribute to fulfilling
the first part of that mission (i.e., issuing explosives licenses without
causing disruptions to businesses) can be viewed as successful while at
the same time ATF’s actions to prevent prohibited persons from having
access to explosives) can fall short.

     Our analysis of the ATF’s response to the report’s
recommendations follows.

THE ATF’S RESPONSE TO THE OIG’S RECOMMENDATIONS

     Recommendation 1: Implement procedures to ensure that all
Employee Possessor applicants receive a thorough background
check.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF did not specifically
state that it concurred with this recommendation, although it indicated
concurrence by identifying the steps it is taking to implement the
recommendation. In its response, the ATF provided additional comments
regarding the background check process.

      The ATF reiterated that it was given two to six months to
implement the provisions of the SEA, including conducting background
checks of Employee Possessors and Responsible Persons, and noted that
the Federal Licensing System (FLS) and National Instant Background
Check System (NICS) used to conduct background checks “are simply
not designed to accommodate SEA requirements.” The ATF stated that
despite the obstacles it “has implemented appropriate procedures to
ensure that [Employee Possessors] receive the required background
checks.” The ATF then stated that it is in the process of establishing


U.S. Department of Justice                                               91
Office of the Inspector General
Evaluation and Inspections Division
additional procedures to ensure that background checks are completed
as expeditiously as possible, including procedures for referring cases of
individuals for whom the Federal Bureau of Investigation (FBI) could not
conclude background checks to ATF field offices.

        The OIG’s Analysis: The ATF’s proposed actions are partially
responsive to the recommendation. We accept the ATF’s statement that
it is in the process of establishing controls to ensure that background
checks are accomplished as expeditiously as possible. By June 15,
2005, please provide copies of the additional procedures established and
status reports on the accomplishment of background checks on
Employee Possessors. In addition, please provide a copy of the
procedures established for referring cases of incomplete background
investigations to ATF field offices and a listing of the cases referred, by
Field Division, including the status or final outcome of the 297
outstanding cases identified on page 30 of this report. Finally, please
provide the roster of individuals who attend the planned FBI training in
May 2005.

       Although the ATF response addresses its efforts to improve future
background checks, the response fails to address how it intends to
identify and correct the case files of applicants who did not receive
background checks. As described on page 23 of this report, our sample
found that about 9 percent (59 of 683) of SEA applicants processed by
the ATF had no corresponding background check in the FBI’s NICS
system. The ATF response indicates that this may have occurred
because the 59 Employee Possessors may not have had a background
check, because the background check was not conducted using the FBI’s
NICS system, or because of incomplete or inaccurate data entry. The
ATF stated that it “will follow up on these 59 [Employee Possessors] to
ensure that appropriate checks were in fact completed and resolved.”

       The ATF’s response fails to fully address the problem we reported.
The individuals we identified were part of a sample of Employee
Possessor applicants in the ATF’s FLS system. Extrapolating from the
9 percent rate of missing background checks in our sample, we estimate
that there may be more than 3,400 individuals in the FLS who have not
received a NICS background check. All of these individuals must be
identified and checked, not just the 59 in our sample. By May 1, 2005,
please provide us with ATF’s planned actions to identify all Employee
Possessors who have no FBI NICS E-Check recorded in FLS to ensure
that all of these individuals receive a NICS background check. These
actions should be consistent with the actions that the ATF takes in
response to Recommendation 3.


U.S. Department of Justice                                               92
Office of the Inspector General
Evaluation and Inspections Division
       In its response to this recommendation, the ATF commented that
“the OIG also concludes that ATF failed to complete the background
checks for 655 of 1,157 [Employee Possessor] records reviewed and
identified by the FBI as possible prohibited persons, or 57 percent of OIG
sample.” The ATF response indicates that the ATF believes these persons
to be “delayed” Employee Possessors. The ATF described a scenario in
which the FBI reports an unresolved arrest record. The ATF stated that
it cannot render a decision based solely on an arrest, but must resolve
the disposition prior to rendering a final determination to deny the
individual. The ATF concluded this section of its response by stating
that it will ensure resolution of each of the 655 “delayed” Employee
Possessors.

       The ATF’s comments regarding the 655 individuals contain
significant errors. Most significantly, the 655 individuals we identified
were not “delayed” Employee Possessors for whom the FBI was unable to
complete the background check and provide a “proceed” or “deny”
response to ATF. To the contrary, all of these 655 individuals had been
identified by the FBI as possible prohibited persons and had been
recommended for denial (see page 28 of the report). These possibly
prohibited persons are different from the 297 individuals that we
identified (see discussion beginning on page 29) for whom the FBI had
been unable to complete a background check, but for whom the ATF had
not referred to ATF Field Divisions for further review.

       The ATF response also stated it issued denial letters to four
Employee Possessors identified by NICS as convicted felons (see page 29
of the report). This response is inadequate. The four individuals
identified in the report were only examples of a much larger group of
potentially prohibited persons identified by the FBI for whom the ATF
had failed to take action. That group includes the 655 individuals that
the FBI had identified as potential prohibited persons as well as the 297
individuals for whom the FBI had identified possibly prohibiting factors
but could not complete the background checks. Further, the ATF may
identify additional prohibited persons once it identifies all individuals for
whom no background check has been conducted (which we estimate to
be more than 3,400 individuals) and completes the required checks.

      By May 1, 2005, please provide the ATF’s planned actions to
complete its adjudication process for the 655 individuals identified by the
FBI as possible prohibited persons, as well as the planned actions to
complete the background checks on the 297 outstanding cases of
individuals for whom the FBI could not complete background checks.


U.S. Department of Justice                                                 93
Office of the Inspector General
Evaluation and Inspections Division
These actions should be consistent with the actions that the ATF reports
in response to Recommendation 3.

      Recommendation 2: Establish milestones and controls to
ensure that Employee Possessor applicants do not remain in a
“pending” status in the FLS for extended periods. As an immediate
action, NLC management should regularly generate an aging report
for pending cases, setting priorities for resolving those cases that
have been in a pending status for more than 45 days.

       Status: Resolved – Open

      Summary of the ATF’s Response: The ATF concurred with this
recommendation and stated that it plans to develop “a system-generated
monthly report” for all active applicant and renewal Federal Explosives
Licensees of each Responsible Person or Employee Possessor who
remains pending beyond 60 days. The Federal Explosives Licensing
Center will ensure that a final determination is completed for these
pending Responsible Persons or Employee Possessors.

      The OIG’s Analysis: The ATF’s proposed action is responsive to
the recommendation. We accept the ATF’s proposed alternative of
generating a report on Employee Possessors remaining in pending status
longer than 60 days rather than 45 days.

      By June 15, 2005, please provide us with copies of the
system-generated monthly reports on Employee Possessors remaining in
pending status and documentation demonstrating that a final
determination has been completed and entered for those Employee
Possessors.

      Recommendation 3: Implement procedures to ensure the
integrity, completeness, and accuracy of the Employee Possessor
information in the FLS. To correct the current data problems, the
ATF should conduct a 100 percent cross-match of the names of
individuals issued licenses and permits by the ATF with the names
of individuals on whom the FBI conducted NICS checks, and then:

       — Conduct background checks on any individuals contained in
       the ATF licensing system but not confirmed as having been
       checked by the FBI.




U.S. Department of Justice                                            94
Office of the Inspector General
Evaluation and Inspections Division
       — Immediately recheck the license status of all individuals
       determined by the FBI to be prohibited persons and ensure
       those individuals are denied access to explosives.

       — For any individual that the FBI has recorded a NICS
       background check under the NLC’s NICS user identification
       number, but for whom the ATF has no record in its licensing
       system, determine whether the person is involved in the
       explosives industry. If the person is, enter the individual into
       the ATF’s licensing system, and, if not, conduct an
       investigation to determine who may have performed the
       background check and why.

       Status: Unresolved – Open

       Summary of the ATF’s Response: The ATF did not concur with
this recommendation. While stating that it is constantly reevaluating the
FLS system to identify new methods to improve FLS data and has
instituted new methods to ensure data accuracy, the ATF said it
disagrees with the report’s “underlying assumption that the ATF FLS and
the FBI NICS systems must be mirror images of one another.” The ATF
indicated that reconciliation of its FLS database and the FBI NICS
database is not critical, but stated that “it would be extremely helpful for
ATF to be able to access the FBI audit log and any FBI research.”
However, FBI regulations preclude ATF access to the FBI audit log.

       The OIG’s Analysis: The ATF’s comments are not responsive to
the recommendation. The ATF’s nonconcurrence is based on its
characterization of the OIG report as having an “underlying assumption”
that the ATF’s FLS and the FBI’s NICS systems must be mirror images.
That is incorrect. We recognize that there are legitimate reasons for
differences in the FBI and ATF systems. However, the differences should
be the result of specific decisions made on each case, and not caused by
errors. We maintain that the information in the ATF’s FLS should be
complete and accurate. As detailed beginning on page 37 of this report,
that currently is not the case. Our review identified significant
discrepancies in the data contained in the ATF’s FLS regarding the status
of Employee Possessors that undermined its utility for effectively
managing the implementation of the SEA.

      Further, the FLS did not accurately reflect that a thorough
background check had been conducted or provide a completed clearance
status for each Employee Possessor. As documented in the report, we
found that 9 percent of Employee Possessor records did not contain


U.S. Department of Justice                                               95
Office of the Inspector General
Evaluation and Inspections Division
evidence that a background check had been requested, 30 percent of
Employee Possessor records had not been updated to accurately reflect
the results of background checks, and 2 percent of the individuals for
whom the FBI conducted background checks did not appear in the FLS.
We also found that the FLS contained numerous spelling errors and
illogical data.

      To correct the existing deficiencies and ensure the integrity,
completeness, and accuracy of Employee Possessor information in the
FLS, we recommended that the ATF compare its records with the most
accurate records available – the FBI’s NICS records. Although it did not
concur with this recommendation, the ATF offered no alternative
approach for correcting the unacceptable level of discrepancies we found
in FLS data.

      Regarding the ATF’s comments that ATF final determinations may
or may not mirror the FBI determinations, we asked the ATF to identify
cases where that occurred. Out of the more than 55,000 Employee
Possessor records in the FLS, the ATF identified only 2 cases in which
the FBI recommended that an applicant be approved but the ATF denied
the applicant, and 12 cases in which the FBI recommended denial but
the ATF ultimately approved the applicant.

       By May 1, 2005, please provide documentation of the new methods
implemented by the ATF to ensure accuracy of FLS data. In addition,
please inform us of how the ATF intends to identify and correct the
existing data errors in the FLS, specifically including actions to ensure
that all Employee Possessors received a NICS background check and that
the results of the NICS background check and the ATF’s final
determination are completely and accurately reflected in the FLS
database for all Employee Possessors.

       Also by May 1, 2005, please respond to the recommendation that
the ATF identify the source of explosives-related NICS checks for
individuals who do not appear in the FLS database and take action to
either enter the individuals in the FLS database or take action to ensure
that the FBI NICS E-Check system is not being misused. In addition,
please inform us of the actions the ATF has taken to complete its
adjudications, and the determinations made, for all individuals identified
as potentially prohibited persons by the FBI.

       By June 15, 2005, please provide a status report on the ATF’s
efforts to identify Employee Possessors who had no record of having
received an FBI NICS E-Check in the FLS, including the number of


U.S. Department of Justice                                              96
Office of the Inspector General
Evaluation and Inspections Division
records checked, the number of Employee Possessors that did not have a
NICS E-Check recorded in the FLS, and the action taken to ensure that a
background check was conducted on each of these individuals.

      Recommendation 4: Implement quality control procedures,
data entry protocols, and system modifications to ensure FLS data
accuracy, including:

            — Modification of the FLS to ensure that an Employee
       Possessor has only one status, system-wide, no matter how
       many licenses or permits are associated with the individual.

              — Modification of the FLS to prevent the entry of
       illogical or incomplete data.

            — Modification of the FLS to preclude the entry of
       Employee Possessor information into the FLS without a NICS
       background check having been completed.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF partially concurred
with this recommendation, stating that “To the extent that existing
information systems and resources allow, ATF concurs that it will
implement quality control procedures and data entry protocols in FLS to:
(a) ensure an individual [Employee Possessor’s] current status is
reflected in all FLS records; and, (b) prevent the entry of inaccurate
data.” The ATF did not concur with the recommendation to preclude
entry of Employee Possessor information into the FLS unless the NICS
background check has been completed because it was revising the data
entry process.

      The OIG’s Analysis: The ATF’s proposed actions for the first two
parts of this recommendation are responsive. By June 15, 2005, please
provide us with documentation of all FLS quality control procedures and
data entry protocols as well as copies of reports of quality control checks
that demonstrate the procedures and protocols are being enforced.

      Regarding the third part of this recommendation, the ATF response
indicated that it has implemented other changes that make unnecessary
the recommended controls over entry of information into the FLS to
ensure NICS E-Checks are conducted. Specifically, at the time of our
review, the submission of the NICS E-Check and the entry of information
on Employee Possessors into the FLS were carried out by different


U.S. Department of Justice                                               97
Office of the Inspector General
Evaluation and Inspections Division
individuals at different times. The ATF response indicated that new
procedures call for these entries to be made simultaneously by the same
data entry clerk. Further, under the new procedures as described in the
ATF’s response, the FLS entry is required in order to identify the
explosives licensee that the Employee Possessor is associated with on the
NICS E-Check. We accept that the changes described by the ATF will
reduce the likelihood that individuals without NICS E-Checks will be
entered into the FLS. Therefore, we have removed the third part of this
recommendation from the report.

      Recommendation 5: Use existing NLC Employee Possessor
information to provide a monthly listing to each Field Division of
the licensees in their jurisdiction, the number of Employee
Possessors, and the date the company last reported an Employee
Possessor to determine the most egregious cases of licensees who
have failed to notify the ATF of new hires.

       Status: Unresolved – Open

      Summary of the ATF’s Response: The ATF did not concur with
the recommendation, stating that “It is not necessary nor is it legally
required to conduct monthly inspections of all [Federal Explosives
Licensees] employee possessor information.” The ATF stated that
devoting resources to such a task would divert Inspectors from
conducting routine but critical firearms and explosives inspections.

        The OIG Analysis: The ATF’s comment misstates the OIG’s
recommendation and fails to address the problem that the
recommendation was intended to address. The OIG did not recommend
that the ATF conduct monthly inspections of explosives licensees. As
described on page 37 of this report, we found that most explosives
licensees, including many of the largest explosives companies in the
country, had reported no new employees since they submitted their
initial applications under the SEA, beginning in May 2003. Although the
companies had not reported hiring any new workers, we found that some
of these same companies were advertising to hire explosives workers.
The SEA required that new employees with access to explosives must be
reported to the ATF within 30 days of their being hired so that the ATF
could conduct the required background checks. It is incumbent on the
ATF to exercise due diligence by taking reasonable steps to identify
companies that are not complying with the SEA’s reporting requirements.

       To fulfill that responsibility, we recommended that the ATF use its
existing FLS database to generate monthly reports listing the companies


U.S. Department of Justice                                              98
Office of the Inspector General
Evaluation and Inspections Division
in each ATF Field Division according to the number of Employee
Possessors previously reported and the date these companies last
reported hiring a new employee. Because ATF Inspectors and Area
Supervisors are most knowledgeable of explosives operations and
activities within their Division, we recommended providing these
individuals with information to help identify potential instances of
noncompliance and ensure that all persons having access to explosives
receive timely background checks.

      By May 1, 2005, please address this recommendation by providing
us with a plan for issuing reports on explosives licensees (according to
Field Division, number of Employee Possessors, and date of last reported
new hire) so that the Field Divisions can ensure that explosives licensees
are complying with SEA reporting requirements. By June 15, 2005,
please provide us with revised data identifying, by month, the number of
explosives licensees that have reported new employees and received
amended Notices of Clearance through May 30, 2005. Please segregate
and identify separately any amended Notices of Clearance that were
issued for reasons other than to report clearance determinations on new
employees.

      Recommendation 6: Take action to ensure that there is no
unauthorized or inappropriate use of the FBI NICS E-Check system.
As an immediate action, the ATF should cancel the NLC’s NICS user
identification number and assign unique user identification numbers
to each individual responsible for conducting the checks.

       Status: Unresolved – Open

      Summary of the ATF’s Response: The ATF did not concur with
our recommendation to assign unique user identification numbers to
each individual responsible for conducting NICS E-Checks. The ATF
stated that the NICS E-Check system is designed to capture the name of
each ATF employee conducting a background check, and therefore
individual identification numbers are not needed. The ATF
acknowledged that in the past there may have been instances where
Employee Possessors received a NICS check but were not entered in the
FLS but stated that it is taking corrective actions such as implementing
quality control procedures and data protocols to remedy these problems.

      The OIG’s Analysis: The ATF’s comments do not address the core
issue raised by our recommendation because it does not indicate
whether the ATF it intends to take any action to identify the source of the
2 percent of checks we found that did not appear in the ATF’s database.


U.S. Department of Justice                                              99
Office of the Inspector General
Evaluation and Inspections Division
At this rate, about 700 of the 35,017 checks conducted by the FBI would
not appear in the FLS. The ATF identified one of these individuals when
it examined a sample of 52 individuals identified as potential prohibited
persons by the FBI (see page 28). However, as of March 2005 the ATF
had yet to locate any records in the FLS related to that individual.

      By May 1, 2005, please describe how the ATF intends to identify
individuals recorded in the FBI’s NICS system as having been checked
using the NLC’s certificate but who do not appear in the ATF’s FLS.
Further, please provide the ATF’s plan for identifying the source of these
checks and determining the appropriate authorization status of the
individuals beginning with those individuals listed in the FBI’s system as
having been potentially prohibited persons.

      Recommendation 7: Improve the consistency of regulatory
determinations by designating a single point of contact at ATF
Headquarters for Inspectors and explosives industry members. The
point of contact should maintain a history of regulatory inquiries
and post frequently requested information on the ATF’s website.

       Status: Unresolved – Open

      Summary of the ATF’s Response: The ATF did not indicate
concurrence or nonconcurrence with the recommendation. However, the
ATF’s response described the activities of its Explosives Industry
Programs Branch as evidence that it is meeting the recommendation’s
intent.

       The OIG’s Analysis: While the ATF stated that it is already in
compliance, we are not resolving the recommendation because the
activities described are not fully responsive to the recommendation. The
intent of our recommendation was to improve the consistency of
regulatory determinations by designating a single point of contact for
specific regulatory areas, making those individuals responsible for
maintaining a history of inquiries, and disseminating regulatory
determinations widely through the ATF’s website. The activities of the
Explosives Industry Programs Branch described by the ATF in its
response indicated that it maintains a history of regulatory inquiries and
responds individually to “hundreds of letters, facsimiles, phone calls, and
other inquiries from industry and from ATF personnel” regarding
explosives issues. However, the only wide dissemination of information
identified by the ATF is the twice yearly newsletters sent to industry
members. Further, the ATF response does not address our



U.S. Department of Justice                                             100
Office of the Inspector General
Evaluation and Inspections Division
recommendation that it post frequently requested information on its
website.

      By May 1, 2005, please provide the following: copies of any
evaluations of how information is processed and communicated to ATF
Field personnel and the explosives industry and a copy of any log of
inquiries received by the Explosives Industry Programs Branch and the
responses provided since May 2003. Also, please provide a list of the
industry events, seminars, and conferences attended by Branch staff and
copies of any presentations given by those individuals during FY 2005.
Finally, please respond specifically to the recommendation to post
answers to frequently asked questions on the ATF’s website.

      Recommendation 8: Examine alternatives for speeding the
delivery of the ATF’s Advanced Explosives Training course to all
Inspectors, and develop a curriculum to build explosives expertise
within the ATF’s Inspector workforce.

       Status: Resolved – Open

      Summary of the ATF’s Response: The ATF response did not
indicate concurrence or nonconcurrence, but described the actions it is
taking to improve training provided to ATF Inspectors on SEA
implementation. Among other things, the ATF said it will provide the
advanced explosives training course three times in fiscal year (FY) 2005
and four times in FY 2006. In addition, the ATF stated that it has
“designed and developed the advanced explosive training curriculum to
build upon the expertise of the Inspector workforce obtained through
previous training classes and on-the-job training.” The training cited by
the ATF included the Advanced Explosives Training for Inspectors,
Chemistry of Pyrotechnics, and the Mine Safety and Health
Administration seminars. The ATF also plans to provide each Field
Division with a variety of explosives training materials and training aids
to be utilized during mandatory roll-call training at the Area Office level,
including table of distance reviews and exercises, a multimedia database
of explosive product identification, and training on other topics.
Accordingly, the ATF concludes that it is already implementing this
recommendation.

       The OIG’s Analysis: The OIG considers this recommendation
resolved as the actions described are responsive to our recommendation.
By June 15, 2005, please provide copies of the training materials and
training aids provided to Field Divisions for use during roll-call training;
a copy of the Explosives Multimedia Database; and the dates of delivery


U.S. Department of Justice                                              101
Office of the Inspector General
Evaluation and Inspections Division
and attendance rosters for classes in Advanced Explosives Training for
Inspectors and the Chemistry of Pyrotechnics.

      Recommendation 9: Develop a detailed timeline for
accomplishing the actions necessary to complete the
implementation the National Explosives Licensing Center in
Martinsburg, West Virginia, including the implementation of
changes to the licensing and background check processes, the
adjudication process for Employee Possessors, and the data systems
that will support these processes.

       Status: Resolved – Open

       Summary of the ATF’s Response: The ATF’s response stated
that it is already implementing this recommendation, which we accept as
concurrence. The ATF stated that “a detailed timeline has been prepared
for the completion of the FELC [Federal Explosives Licensing Center] in
West Virginia.” The ATF further stated that it expects to transition all
activities related to explosives licensing to the FELC by the end of
FY 2005.

      The OIG’s Analysis: The ATF’s proposed action is responsive to
the recommendation. By May 1, 2005, please provide us with a copy of
the detailed timeline described, and a status report on the transition of
explosive licensing activities to the FELC.

     Recommendation 10: Develop comprehensive plans, funding
requests, industry notices, proposed regulations, and other
necessary documents to implement the authority granted under the
SEA to collect and catalog samples of explosives at the ATF National
Laboratory.

       Status: Unresolved – Open

       Summary of the ATF’s Response: The ATF’s response stated
that it is already implementing this recommendation, which we accept as
concurrence. However, the ATF response does not indicate that the ATF
is planning to act to correct the deficiencies we found. Therefore, this
recommendation is not resolved.

      In its response, the ATF stated that collecting and cataloging
explosive samples as allowed by the SEA requires “personnel,
appropriate databases, and suitable storage facilities for collected
samples.” The ATF stated that its implementation plan, described in its


U.S. Department of Justice                                             102
Office of the Inspector General
Evaluation and Inspections Division
Laboratory Services’ FY 2005 Operating Plan, included action items such
as completing development of the ATF Explosive Materials Database,
proposing contracts for development of the Database of U.S. Commercial
Explosives, formalizing explosive sample collection protocols, and
advising industry of collection protocols as necessary. The ATF
concludes by disagreeing with the OIG’s statement that the ATF is
making little progress on its efforts to implement the collection of
samples as authorized by the SEA.

       The OIG’s Analysis: We have reviewed copies of the ATF’s
agreement with an engineering consultant to develop preliminary design
drawings for a storage facility and a project plan for a contractor “to
identify and produce the functional requirements for a data set that
characterizes the formulation of explosives and smokeless powder and
develop a database working prototype.” These documents, which are
basically “plans to plan,” are a start. However, they are far from a
comprehensive plan for implementing the authority authorized by the
SEA to collect and analyze explosives samples. The ATF was granted this
authority in November 2002. As of January 2005, the ATF had not
created any databases, had not built any storage facilities to house
samples, had not hired any new scientists to conduct analyses of
explosives sample, and had collected only one sample.

       By June 15, 2005, please provide a copy of a comprehensive plan
that identifies the specific steps needed to fully implement the sample
collection program, including funding requests, industry notices,
proposed regulations, and other documents necessary to implement the
authority granted under the SEA to collect and catalog samples of
explosives at the ATF National Laboratory.

THE ATF’S COMMENTS ON THE NARRATIVE OF THE REPORT

      In addition to addressing the report’s recommendations, the ATF
response contained commentary regarding various findings in the draft
report. In this section, we summarize and provide our analysis of these
ATF comments.

     1. ATF information systems are ineffective for managing the
explosives licensing functions mandated by the SEA.

      The ATF’s Comment: The ATF stated that it has invested
approximately $1.5 million on modifications to the FLS, the core
application for the FELC, and other ATF systems to accommodate the



U.S. Department of Justice                                           103
Office of the Inspector General
Evaluation and Inspections Division
provisions of the SEA. The ATF response listed five specific modifications
made to the FLS.

       The OIG’s Analysis: The ATF comments accurately report the
modifications it made to the FLS. However, notwithstanding those
modifications, the FLS still cannot be used by ATF officials to effectively
manage the explosives licensing functions mandated by the SEA. Among
other things, the FLS cannot easily identify individuals who have not had
background checks conducted by the FBI, cannot easily identify
individuals with a different status in different records, does not
automatically identify individuals whose status is pending for excessive
periods of time, and is not designed with data correction protocols to
identify and prevent the entry of illogical or obviously incorrect data.

2. The ATF does not timely adjudicate appeals from individuals
seeking reconsideration of prohibited person status.

      The ATF’s Comment: The ATF noted that contrary to terminology
used in the draft report, “appeals” apply to individuals who have been
found to be “prohibited” and wish to dispute that finding, while Relief of
Disability (ROD) “applications” are submitted by persons who admit to
being prohibited but wish to apply for relief. In addition, the ATF stated
that ROD applications trigger an “exhaustive field investigation” that can
take 60 days to complete, according to ATF guidelines. The ATF further
stated that the OIG failed to recognize that ATF Special Agents may
request an extension of an additional 60 days “where necessary.”

      The ATF stated it does not dispute that the average investigation
time to adjudicate these applications could take up to 120 days. It also
agreed that the 13 applications cited in our report on page 41 took more
than 6 months to complete, but stated that this is not an unreasonable
amount of time to thoroughly investigate a person’s background before
granting someone relief from explosives disabilities.

       The ATF further comments that a more balanced appraisal of the
timeliness of ROD decisions would treat “granted” applications differently
than “denied” applications because, according to ATF analyses, denials
take longer in part to ensure applicants are provided “due process”
protections through additional review procedures. The ATF stated that it
will update the “Office Procedures” to include a more appropriate length
of time to adjudicate applications.




U.S. Department of Justice                                             104
Office of the Inspector General
Evaluation and Inspections Division
       The OIG’s Analysis: To address the ATF’s concerns over the
potential confusion between the terms “appeal” and “application,” we
substituted the word “request” for the word “appeal” in the body of the
report. The ATF also objected in a footnote to the OIG’s characterization
of grants of relief as overturning the original decision. To address this
concern, we clarified that the ATF action granted relief from the initial
decision. We also note that in response to the report we issued in July
2004 on our Review of the ATF’s Enforcement of Brady Act Violations
Identified Through NICS and in subsequent communications, the ATF has
agreed that it would use staff other than Special Agents to gather
documents and carry out other routine aspects of the investigation
process in cases of denials for firearms purchasers. We believe that a
similar approach would be appropriate in explosives Relief of Disability
cases.

       Regarding the ATF’s statements that it would not be unreasonable
for adjudications to take six months or more to process, we note that the
draft order the ATF gave us during our review only provided 60 days for
the field investigation. If the ATF believes that a longer time is necessary,
then it should revise the draft order before it is finalized.

      We disagree with the ATF’s concern that the OIG’s report may
“mislead readers into thinking that the industry and relief applicants are
experiencing undue delays in relief determinations.” As we describe in
our report, most applicants are granted relief. Further, some applicants
are found not to have merited denial in the first place. In order for these
individuals to resume their work activities, the ATF adjudication process
should be carried out as expeditiously as possible, while exercising all
due care to identify and deny relief to individuals who pose a threat to
public safety.

    3. ATF does not plan to conduct background checks on all
Employee Possessors until 2006.

       The ATF’s Comment: The ATF stated that a better way to state
the above concept is: “The law does not require background checks on
all [Employee Possessors] until all existing businesses qualify under [the]
SEA in 2006.”

      The OIG’s Analysis: To address the ATF’s concern, we changed
the sentence to read: “Due to the phased implementation required by
the SEA, the ATF will not conduct background checks on all Employee
Possessors until 2006.…”



U.S. Department of Justice                                               105
Office of the Inspector General
Evaluation and Inspections Division
      4. Inadequate training for ATF Inspectors has resulted in a
lack of explosives product knowledge and inconsistent regulatory
enforcement; and, it will take up to seven years for all ATF
Inspectors to complete the ATF’s revised training course.

       The ATF’s Comment: The ATF stated that it believes it has
improved its training courses, expanded its focus on on-the-job training,
and successfully strengthened its expertise throughout the ATF. After
extensively describing improvements to various training programs, the
ATF went on to say that, “ATF is aware that Inspectors from different
field divisions are sometimes inconsistent in their advice to industry.”
However, the ATF concluded this comment by suggesting that the
number of instances in which incorrect information has been received
may be overstated.

       The OIG’s Analysis: We accept the ATF’s descriptions of
improvements to its training programs. However, as we documented in
this report, ATF Inspectors and industry members told us of problems
with Inspector training and inconsistent regulatory interpretations. We
encourage the ATF to consider the problems reported to us as it seeks
further to develop the expertise of its workforce and improve the
consistency of its oversight of the explosives industry.

     5. ATF attempted to increase its oversight of explosives
transportation in the beginning of 2003.

      The ATF’s Comment: The ATF stated that the OIG report
incorrectly suggests that the Department of Justice’s Office of Legal
Counsel limited ATF jurisdiction to enforce section 842(i) to the SEA’s
three new prohibited person categories. The ATF further commented
that the report incorrectly suggests that the ATF regulated explosives
transportation. Instead, the ATF stated that it enforced section 842(i)
against all persons transporting explosives since 1970. Finally, the ATF
stated that the report suggests that the ATF improperly imposed an
unnecessary burden on industry when it began requiring that all drivers
hired to transport explosive materials complete a form certifying that
they were the individuals who would transport the explosive materials
from a seller to a buyer.

      The OIG’s Analysis: We made two minor edits on pages 10 and
11 in the Background section of the report to address the ATF’s
concerns. The edits did not substantively change the report.




U.S. Department of Justice                                            106
Office of the Inspector General
Evaluation and Inspections Division
     6. If ATF had issued a Notice of Proposed Rulemaking, rather
than an Interim Rule, “…explosives industry member[s] would have
been afforded the opportunity to comment on ATF’s plans prior to
implementation.”

       The ATF’s Comment: The ATF cited two inaccuracies in the draft
report. In the first, the report states that the ATF issued interim
regulations before the provisions of the SEA took effect. In the second,
the report incorrectly states the order in which “proposed rules” and
“interim regulations” are issued.

      The ATF also stated that “it is apparent that the OIG believes that
ATF should have issued a notice of proposed rulemaking rather than an
interim rule.” The ATF went on to explain why it invoked the “good
cause” exception authorized by the Administrative Procedures Act which
governs notice and comment procedures for federal rulemaking. The ATF
further commented that the report “implies that a proposed rule was not
issued because of ATF’s inability to act in a timely manner, rather than
the lengthy time involved in the usual notice-and-comment rulemaking
process.”

     Finally, the ATF provided a revised date of “in or about October
2006” for issuance of final SEA rules.

      The OIG’s Analysis: To address the ATF’s comments, we changed
the text on page 8 of our report to read “shortly before the Employee
Possessor provisions of the SEA took effect on May 24, 2003.” To
address additional ATF concerns, we revised the description of the
process to read “ATF Headquarters officials stated that, due to time
constraints and the lengthy time involved in the usual notice and
comment rulemaking process, the agency decided to issue interim
regulations.” Our description of the general process for conducting
rulemakings was accurate and was not changed.

       On page 24 of its response, the ATF stated that it was “technically
true that ATF was unable to issue a proposed rule due to time
constraints.” However, the ATF stated that it finds the OIG’s description
of the rulemaking process to be misleading because, according to the
ATF, the OIG “implies that a proposed rule was not issued because of
ATF’s inability to act in a timely manner, rather than the lengthy time
involved in the usual notice-and-comment rulemaking process.” We
disagree. The OIG’s description of the ATF rulemaking process is a
factual presentation and contains no implied commentary on the



U.S. Department of Justice                                              107
Office of the Inspector General
Evaluation and Inspections Division
timeliness of the ATF. Finally, we updated the report to include the
ATF’s revised timeline by which it intends to issue final rules.

       7. Miscellaneous comments on OIG inaccuracies.

      The ATF offered a series of minor corrections to dates and citations
referenced in the draft report. Where appropriate, the OIG made the
corrections.

THE ATF’S RESPONSE TO ADDITIONAL ISSUES SECTION AND
APPENDIX I

      The ATF’s Comment: The ATF stated that the “Additional Issues”
section should be removed from the report because the section appears
“to cast responsibility on ATF for matters not under its control.” The ATF
further requested that we remove a reference to ongoing policy decisions
related to explosives regulation.

      In addition, the ATF requested that we remove Appendix I or clarify
that the analysis contained in this section was conducted by the OIG
review team and not the ATF’s National Repository.

      The OIG’s Analysis: In response to the ATF’s comments, we
removed one sentence from the Executive Digest related to an ongoing
policy discussion on explosives regulation.

      Regarding the ATF’s request that we delete the “Additional Issues”
section of the report, we decline the request. This information is
provided to inform the reader on other issues pertinent to explosives
regulation and public safety. The discussion is segregated from the
discussion of ATF’s implementation of the SEA, and the presentation
makes it clear that the section addresses matters that are not the
responsibility of the ATF. In fact, a central point of the section is
highlighting issues that are currently beyond the ATF’s control.

      Appendix I was included to provide readers with information on the
number and types of bombing incidents that have occurred in recent
years. In response to the ATF’s comments, we made changes to
Appendix I to clarify the categorization of explosive incidents and
incorporate updated data provided by the ATF.




U.S. Department of Justice                                             108
Office of the Inspector General
Evaluation and Inspections Division
